<html>
<title> - EXAMINING BUREAU OF INDIAN AFFAIRS AND TRIBAL POLICE RECRUITMENT, TRAINING, HIRING, AND RETENTION</title>
<body><pre>[Senate Hearing 111-596]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-596
 
   EXAMINING BUREAU OF INDIAN AFFAIRS AND TRIBAL POLICE RECRUITMENT, 
                               TRAINING, 
                         HIRING, AND RETENTION 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-266 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 2010...................................     1
Statement of Senator Barrasso....................................    14
    Prepared statement...........................................    15
Statement of Senator Franken.....................................     3
Statement of Senator Johnson.....................................     1
Statement of Senator Tester......................................     2

                               Witnesses

Gaikowski, Gary, Chief of Police, Sisseton Wahpeton Oyate Law 
  Enforcement....................................................    40
    Prepared statement...........................................    41
Garriott, Wizipan, Policy Advisor to the Assistant Secretary for 
  Indian Affairs, Bureau of Indian Affairs, U.S. Department of 
  the Interior; accompanied by Jason Thompson, Acting Deputy 
  Bureau Director, Bureau of Indian Affairs, Office of Justice 
  Services.......................................................     4
    Prepared statement...........................................     5
Pearson, Hon. Myra, Chairwoman, Spirit Lake Nation; accompanied 
  by David Gipp, President, United Tribes Technical College......    25
    Prepared statement with attachment...........................    29
Posey, Hon. Ivan D., Chairman, Eastern Shoshone Tribe............    36
    Prepared statement...........................................    37
Wright, Joseph W., Assistant Director, Federal Law Enforcement 
  Training Center, Office of Artesia Operations, U.S. Department 
  of Homeland Security...........................................    12
    Prepared statement...........................................    13

                                Appendix

Finley, Hon. Michael O., Chairman, Colville Confederate Tribes, 
  prepared statement.............................................    47
Response to written questions submitted to Joseph W. Wright by:
    Hon. John Barrasso...........................................    49
    Hon. Byron L. Dorgan.........................................    48
    Hon. Tom Udall...............................................    49


   EXAMINING BUREAU OF INDIAN AFFAIRS AND TRIBAL POLICE RECRUITMENT, 
                    TRAINING, HIRING, AND RETENTION

                              ----------                              


                        THURSDAY, MARCH 18, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:55 p.m. in room 
628, Dirksen Senate Office Building, Hon. Tim Johnson 
presiding.

            OPENING STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Welcome to the first panel, Wizipan 
Garriott, Policy Advisor to the Assistant Secretary for Indian 
Affairs, Department of Interior; and Mr. Joseph Wright, Deputy 
Assistant Director, Federal Law Enforcement Training Center, 
Department of Homeland Security.
    The Committee meets today to examine the hiring and 
training practices for tribal and Bureau of Indian Affairs 
police officers. Over the past two years, this Committee's 
oversight hearings have confirmed that many Indian reservations 
are suffering longstanding crises of violence.
    One of the primary reasons this violence continues is 
because of the lack of police officers to stop it. According to 
the BIA, less than 3,000 officers patrol more than 56 million 
acres of Indian lands. According to the BIA, we need an 
additional 2,800 officers just to meet the average staffing 
levels of comparable non-Indian communities.
    In the Great Plains region, we have large Indian 
reservations with populations spread across vast areas of land. 
For instance in South Dakota, the Cheyenne River Indian 
Reservation is roughly the size of Connecticut. On the Pine 
Ridge Indian Reservation from the tribal casino on the west end 
to the community of Wanblee on the east end is 120 miles. These 
vast distances often take their toll on officers and equipment.
    This Committee has been dedicated to establishing a record 
of violence and a substantial need for more funding for police 
in Indian Country. As a result of our work over the past four 
years, Congress has appropriated $990 million to the Bureau of 
Indian Affairs for law enforcement services. However, these 
substantial funding increases have not translated into more 
police on the streets of Indian Country.
    As we will hear today, there are a number of reasons for 
the difficulty in recruiting and retaining new officers. One 
primary reason for the difficulty is the limited number of 
training locations for new officers. Over the past two decades, 
the BIA has required every new police officer to receive 
training at the Indian Police Academy.
    Last month, the Bureau of Indian Affairs submitted a report 
titled Protecting Indian Country. The report makes a number of 
recommendations. I want to thank the Bureau, with support from 
the Department of Homeland Security's Federal Law Enforcement 
Training Center, for preparing this report. And I will look 
forward to further explanation of the proposals.
    I am committed to working with my colleagues on this 
Committee and other Committees to reverse these trends that we 
are seeing in our Indian communities.
    I want to thank all of the witnesses for traveling here 
today. Chief Gaikowski from Sisseton Wahpeton in South Dakota 
is here today. He is very well respected by the law enforcement 
community in my home State and I am honored to have him here.
    Wizipan Garriott is also from South Dakota and he is here 
today representing the Bureau of Indian Affairs. Welcome, 
Wizipan.
    Please begin with your testimony. We ask that you summarize 
your testimony to keep it under five minutes. You can submit 
your full statement for the record.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I want to thank you for holding the 
hearing. I want to thank the witnesses for being here. This is 
important. Public safety is very important. As we talk about 
unemployment and lack of economic improvement in Indian 
Country, safety has to be our first priority or it is never 
going to happen as far as, you know, addressing the 20 percent 
to 80 percent unemployment in Indian Country.
    We are hearing statistics. We are hearing stories. As the 
Chairman pointed out, we put $990 million out. I would like to 
know how many police that has resulted in over the last few 
years. If you can address that in your opening statements, I 
would appreciate it.
    Nine hundred ninety million dollars is a good sum of money. 
It should have made a difference. I don't know that it has, and 
I don't want to throw good money after bad. If it hasn't worked 
up until now, then maybe we need to go a different direction. 
And I would look forward to that suggestion, too, as we move 
forward.
    You know, I mean, conditions are tough out there. We have 
had many, many hearings in this Committee about public safety 
and the crime rate and what is going on in Indian Country. All 
of it is very distressing.
    But I particularly want to hear from the Administration 
witnesses about your plan for making things better. Not what 
you have tried to do. Not what you would like to do. Not what 
you would do in a perfect world, but exactly what you are going 
to do to improve the situation. It is critically important. If 
you don't have a clear vision and a clear plan, we are never 
going to be able to address the situation. It is a difficult 
situation and it needs to be addressed.
    And like I said, if we are going to have quality of life 
improve in Indian Country, it has to be addressed. So I want to 
know exactly what you plan on doing so we can either support it 
or head it in a different direction, depending on what this 
Committee wants to do.
    I want to thank you for being here. I very much appreciate 
your expertise and I look forward to your testimony.
    Senator Johnson. Does Senator Franken have any statement?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Yes, I do. Thank you, Mr. Chairman.
    Thank you for holding this hearing on this important issue 
of recruitment and training and retention of law enforcement 
officers in Indian Country.
    I want to thank our witnesses.
    Crime on Indian reservations is an enormous problem in so 
many States, certainly in Minnesota. For example, on the Red 
Lake Reservation, which I recently visited, the crime rate is 
eight times higher than the national rate.
    There are so many different reasons for this, but one is 
the simple lack of police officers at Red Lake and in Indian 
Country. To obtain minimal officer safety standards as 
determined by the BIA, Red Lake would need a minimum of 32 
officers. However, currently they have 15, less than half of 
what they need. And the BIA's minimum standard is set by the 
standard you would put per person, but if you think about the 
crime rate being that much higher, you would actually want a 
much higher population of police.
    So they are incredibly understaffed. And there are multiple 
reasons for the shortage. The basic one is lack of funding to 
hire more officers, and the responsibility for providing that 
funding falls on the Federal Government. I would completely 
identify myself with Senator Tester's remarks, which is we want 
to make sure that we have a plan, a clear vision on how to 
spend that money. So, but we are failing Red Lake and we are 
failing so many of the other tribes in Minnesota and across the 
Country.
    Lack of good crime data in Indian Country is really another 
huge challenge. It is something that we are just beginning to 
address in Minnesota with a program called I-CARE, which would 
have the reservation sharing data, which they haven't been 
doing. And in many ways, it makes it harder to track down 
criminals who go from one reservation to another or go from the 
reservations to the Twin Cities or elsewhere.
    So, and this is getting the cooperation of the tribes in 
Minnesota and I think it is a great model. It is called I-CARE. 
I would love for you to look into it.
    Minnesota also has the unique challenge of being a Public 
Law 280 State, which means that the Federal Government has 
delegated jurisdiction over tribal law enforcement to the State 
for most of the tribes. And this just creates a lot of 
challenges for police departments on reservations across the 
State.
    Anyway, the bottom line is we have to figure out how to 
reduce crime in Indian Country, and this has to include more, 
more and more effective officers working in Indian Country, and 
providing them with good training and giving them incentives to 
stay, and an opportunity for advancement, and just a chance at 
upward mobility in order to keep them there.
    So I am looking forward to hearing your testimony and for 
us delving into these issues today. I have read your testimony 
and I want to thank you for it.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you.
    Mr. Garriott?

STATEMENT OF WIZIPAN GARRIOTT, POLICY ADVISOR TO THE ASSISTANT 
 SECRETARY FOR INDIAN AFFAIRS, BUREAU OF INDIAN AFFAIRS, U.S. 
                  DEPARTMENT OF THE INTERIOR; 
         ACCOMPANIED BY JASON THOMPSON, ACTING DEPUTY 
 BUREAU DIRECTOR, BUREAU OF INDIAN AFFAIRS, OFFICE OF JUSTICE 
                            SERVICES

    Mr. Garriott. Thank you, Mr. Chairman. It is always good to 
see a fellow South Dakotan.
    Members of the Committee, my name is Wizi Garriott. I am 
the Policy Advisor for the Assistant for Indian Affairs, and I 
am joined today by Mr. Jason Thompson, who is the current 
Acting Director for the Office of Justice Services at the BIA.
    I want to thank the Committee for making Indian law 
enforcement an priority. The Assistant Secretary and the 
Administration share the Committee's commitment to making 
Indian Country safer. We have taken a number of significant 
steps forward to address the public safety crisis throughout 
Indian Country, specifically in the area of law enforcement 
personnel.
    President Obama and Secretary Salazar heard first-hand that 
public safety is a tribal priority at the 2009 Tribal Nations 
Listening Conference. The President stated his support for the 
Tribal Law and Order Act and I want to again express our strong 
support for passage of this critical legislation.
    Overall, Indian Affairs is taking a four-pronged approach 
to protecting Indian Country and we are focusing on prevention, 
improving policing operations, tribal courts, and detention.
    Our first and most urgent priority in this endeavor is 
increasing the number of officers on the ground. And I am 
pleased today to provide an update on those efforts. As of 
October 22, 2009, the BIA had 243 sworn law enforcement staff 
and 191 funded vacancies throughout Indian Country.
    BIA has recently implemented an aggressive recruitment 
initiative and we are working diligently to fill these 
positions, and we are pleased to report that since December 
1st, OJS has received 2,692 police officer applications, which 
far exceeds our initial expectations. I want to emphasize that 
by comparison, during the months of October and November, we 
only received 10 applications.
    We are also utilizing the best recruitment strategies. We 
are working to get the word out on the Web, working with 
colleges and universities and using all other available media. 
We are also working to establish a position within OJS for 
someone to focus solely on law enforcement recruitment.
    Our aggressive recruiting has translated into results. To 
date, we have made 65 police officer offers to 65 police 
officer applicants, and we are pleased to announce that 51 have 
accepted positions. These hard to fill locations with the 
greatest need will receive priority placement, and additional 
selections are in the pipeline.
    One obstacle in the hiring process is that the background 
process is too lengthy. By conducting preliminary 
investigations internally, we hope to address this problem and 
to speed up the process.
    Retention has been another issue. We found that we were 
losing some of our BIA police officers to other jurisdictions 
because we cannot compete salary wise, and we are instituting a 
review of all OJS salaried positions to ensure parity with 
other law enforcement agencies throughout the Federal 
Government.
    Additionally, we are planning to aggressively use 
recruitment incentives such as paying relocation costs, 
awarding recruitment bonuses, paying student loans. And we are 
also planning to utilize service agreements under which an 
employee agreeing to serve in a hard to fill position for a 
certain period of time receives priority placement into a 
position of his or her choice after the service agreement has 
expired.
    We are also working aggressively to improve our training. 
We are addressing the high attrition rates at the Academy 
through a number of initiatives. I would be happy to talk about 
those later.
    Finally, we are working to establish a Bridge Program at 
United Tribes Technical College. And we feel that this Bridge 
Program will greatly increase the number of law enforcement 
applicants from colleges and from State agencies.
    We are taking an honest assessment of our services in 
Indian Country and we are looking at what has worked in the 
past and what has not worked. Our Indian Country law 
enforcement personnel are talented and dedicated men and women, 
and we are committed to providing them the tools necessary to 
do their job.
    Mr. Chairman and the Committee, I would be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Garriott follows:]

Prepared Statement of Wizipan Garriott, Policy Advisor to the Assistant 
Secretary for Indian Affairs, Bureau of Indian Affairs, U.S. Department 
                            of the Interior
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee. Thank you for inviting the Department of the Interior 
(Department) to provide testimony before this Committee on the topic of 
Bureau of Indian Affairs (BIA) and recruitment, hiring, training and 
retention of law enforcement officers in Indian Country. My name is 
Wizipan Garriott, and I am an enrolled member of the Rosebud Sioux 
Tribe. I currently serve as the Policy Advisor to Assistant Secretary 
for Indian Affairs, Larry Echo Hawk, at the Department.
    President Obama has made addressing public safety in tribal 
communities a top priority for his Administration. This priority is 
shared by Secretary Ken Salazar, Assistant Secretary Larry Echo Hawk, 
tribal leaders and many members of this Committee. The Administration 
strongly supports the Tribal Law and Order Act, S. 797 as amended. I 
want to acknowledge Chairman Dorgan's leadership on this issue, and 
this Committee's efforts to improve public safety in Indian Country.
    In addressing the need for additional public safety resources, the 
Department understands increasing the number of law enforcement 
officers in Indian Country will require enhancing our recruitment, 
hiring, training, and retention efforts. In addition to those efforts, 
it requires increased coordination with the Department of Justice.
    BIA recently made several recommendations in its February 3, 2010 
report, ``Protecting Indian Country'' which identifies methods for 
improving our law enforcement and corrections operations. The 
Department also recognizes the need for continued consultation with 
tribal leaders on a government-to-government basis. At the White House 
Tribal Nations Conference held at the Department on November 5, 2009, 
many tribal leaders raised concerns about public safety and law 
enforcement issues in Indian Country. We are pleased to provide this 
Committee and its members an overview of our efforts at BIA to recruit, 
hire, train and retain law enforcement personnel in Indian Country.
    As discussed below, in the last eight months BIA has taken a number 
of significant steps toward addressing the public safety crisis 
throughout Indian country. These efforts include:

  <bullet> Developing a national recruitment strategy targeted towards 
        staffing historically hard-to-fill duty locations for Law 
        Enforcement and Corrections Officers for the Office of Justice 
        Services.

  <bullet> Implementing an aggressive Nation-wide initiative increasing 
        the number of applicants from 10 in the months of October and 
        November 2009, to 1,454 from December 2009 to mid-January 2010. 
        These increased numbers led to the employment of 51 new Law 
        Enforcement Officers within the first 60 days, compared to the 
        employment of only 2 new officers in the year prior to October 
        2009. New hires are all from outside of the BIA. The BIA is 
        streamlining the hiring process by implementing preliminary 
        background investigations to reduce lag time between hiring and 
        entry into the training pipeline.

  <bullet> Developing a Federal Law enforcement Bridge Training 
        Program. The Bridge Program increases the recruitment pool by 
        allowing State and Local certified Officers from 1 of the 22 
        states recognized by the Indian Police Academy to complete the 
        Bridge Program and achieve Federal certification without 
        attending a full Basic Police Officer Training Academy.

  <bullet> Piloting a Land Management Training Program into FLETC 
        Artesia to increase the number of available Tribal and BIA Law 
        Enforcement training cycles from 3 to 14. This increase in 
        training cycles aims to enhance cadet mentoring and reduce 
        attrition by lowering class size from 48 to 24.

Deployment of Federal Resources to Address Public Safety in Indian 
        Country
    As Assistant Secretary Larry Echo Hawk stated in his testimony 
before this Committee last month, the President's FY 2011 budget 
request proposes for BIA an additional $20 million in public safety 
funding over the FY 2010 enacted level. This additional funding will 
support the Department's ``Protecting Indian Country'' initiative. 
Specifically, $19 million will be provided via reimbursement by BIA to 
DOJ to fund additional FBI agents. The FBI has primary jurisdiction 
over major crimes on more than 200 reservations with approximately 105 
agents available to investigate crimes that occur in Indian Country. 
The reimbursable funding provided to the FBI will add 45 agents as well 
as other personnel, assuring that the resources will be spent in Indian 
Country and focused on high-priority areas like drug trafficking and 
related violence. The Budget also proposes an increase of $1 million 
for detention center operations and maintenance for new facilities 
built with DOJ grants.
    In addition, Associate Attorney General Tom Perrelli testified 
before this Committee last month that the President's FY 2011 budget 
proposes for the Department of Justice a 7 percent set-aside--$42 
million--from the COPS Hiring Program to support the hiring of tribal 
law enforcement personnel, an additional 7 percent set-aside--$139.5 
million--from DOJ's Office of Justice Programs for Indian Country 
efforts, and statutory set-asides totaling $42.9 million for certain 
Office on Violence Against Women programs. These set-asides, combined 
with other DOJ programs designed exclusively for tribal communities 
provide $255.6 million for DOJ grant programs in Indian Country that 
will support the agencies' joint effort to improve public safety in 
Indian Country.
Bureau of Indian Affairs, Office of Justice Services Programs
    The Office of Justice Services (BIA-OJS) supports 191 law 
enforcement programs, including 40 BIA-operated and 151 tribally-
operated programs. Seventy-nine percent of the total BIA-OJS programs 
are under contract to Tribes as authorized under Public Law 93-638, as 
amended, or compacted to Tribes as authorized under Title IV of the 
Indian Self Determination and Education Assistance Act, as amended. 
Many Tribes supplement BIA funding with money from their treasuries, 
grants from DOJ, or other sources.
    As of October 22, 2009, BIA had 243 sworn law enforcement staff and 
191 funded vacancies, for a total of 434 sworn law enforcement 
positions within the six law enforcement districts. As of November 10, 
2009, tribal law enforcement programs employed 2,754 sworn law 
enforcement officers and had 80 funded vacancies, for a total of 2,834 
sworn law enforcement positions. This brings the total number of 
currently funded sworn law enforcement positions for Indian Country to 
3,268.
    Based upon FY 2010 funding allocations, the current BIA staffing 
levels for sworn personnel providing direct services within the six BIA 
Districts are estimated at approximately 1.08 officers per 1,000 
residents. Utilizing the Tribes current sworn personnel staffing 
levels, tribal law enforcement are estimated at approximately 2.16 
officers per 1,000 residents. Combining the current funded BIA and 
Tribal forces, the total ratio for Indian Country law enforcement (BIA 
and Tribal) based upon their reported service population is 
approximately 1.91 officers per 1,000 residents. Thus, all of these 
staffing ratios are below the comparable national average of 3.5 
officers per 1,000 residents.
Recruitment
    Historically, BIA-OJS has not advertised job vacancies outside of 
agency locations. The BIA-OJS recently implemented an aggressive 
recruitment initiative to fill funded vacant law enforcement positions. 
We have extended our recruitment efforts beyond local agencies and on 
USAJOBS, the Federal government's official job list. This aggressive 
effort has produced some great results. Since December 1, 2009, BIA-OJS 
has received 1,454 police officer applications, exceeding initial 
recruiting expectations. The initiative will be an ongoing endeavor to 
attract the best qualified candidates for Indian Country law 
enforcement positions. This effort will utilize the Internet, police 
periodicals, billboards, recruiting fairs at high schools and colleges, 
National/Local Police Organization web sites, employment agencies, 
tribal newspapers, websites, and organizations, and other advertising 
and best recruitment strategies. BIA-OJS is working with our Human 
Resources Office to finalize a position within OJS that will focus 
solely on recruitment and related activities.
    One recruitment obstacle that cannot be overcome by advertising is 
that OJS cannot hire a law enforcement officer who is over the age of 
37 without a waiver. Requests for waivers to this requirement are 
submitted on a case-by-case basis, which is time consuming and 
inefficient. To address this problem we are exploring options to 
receive blanket waiver authority and will pursue this process, so that 
we will have a larger applicant pool, particularly of experienced 
officers, to draw from.
    We have also begun developing partnerships with various military 
branches as a source for law enforcement recruits. For example, the 
U.S. Army Reserve Employer Partnership Initiative is an innovative 
human capital strategy under which the Army Reserve collaborates with 
business and government leaders to ensure reserve soldiers have 
civilian employment when not on reserve duty. This initiative is 
mutually advantageous: employers and the Army Reserve both employ a 
highly capable soldier-employee who is trained, knowledgeable, and 
experienced in the various facets of public safety and law enforcement. 
We believe this effort would provide BIA access to a 202,000 veteran 
recruitment pool. BIA is also seeking out other partnerships with other 
branches of the Military.
Hiring
    BIA recently extended offers to 65 police officer applicants, of 
which 51 applicants have accepted. These new officers will be placed in 
high-priority areas. We are in the process of filling the remaining 
funded vacant positions. OJS will continue to work diligently to fill 
these positions.
    BIA OJS is taking steps to minimize the delay and disruption of the 
hiring process by conducting the Preliminary Background Investigation 
(PBI) internally to bring prospective permanent employees on board 
prior to waiting for the full background check by the Office of 
Personnel Management (OPM). This new system will allow BIA-OJS to bring 
employees on board to attend mandatory training prior to completion of 
the full background investigation by OPM. The employment would be 
conditional and subject to successful completion of an OPM background 
check.
    OJS has assigned a team of Criminal Investigators to the 
recruitment team to conduct the PBI on new police officer, criminal 
investigator and correctional officer selectees. The PBI will inform 
OJS management immediately of any disqualifying issues to mitigate loss 
of federal resources. Upon receiving a favorable recommendation from 
PBI, OJS will grant a Request for Waiver that allows the applicant to 
begin employment prior to the completion of the official OPM background 
investigation. While these employees would have some restrictions on 
their duties prior to the completion of the full OPM background 
investigation, this new system allows new employees to begin training 
programs and perform important interim tasks.
Retention
    BIA-OJS has recently implemented initiatives to enhance the 
retention of qualified law enforcement employees. We will review and 
re-evaluate the current grade structure of all OJS positions to ensure 
parity with other federal law enforcement agencies. OJS positions are 
consistently at a lower grade than those of other federal law 
enforcement agencies. This adversely affects OJS' ability to recruit, 
retain, and develop leaders who can rise to the top of the 
organization.
    Historically, OJS has struggled to fill police officer and mid-
level supervisory positions in the field. These positions are a vital 
link in day-to-day field operations and largely responsible for the 
safety of citizens within Indian Country. By increasing the grade 
levels of OJS positions, OJS will be better able to attract more 
applicants and allow employees the opportunity to bolster their 
experience and knowledge by competing for future upper management 
positions.
    BIA is considering expanding and institutionalizing the use of 
recruitment incentives to attract new police officers and retain them. 
BIA presently has the authority to pay relocation costs, award 
recruitment incentives, and repay student loans, for certain positions. 
Another retention tool is the use of Service Agreements under which an 
employee, for example, agrees to serve in a high-priority area for a 
certain period of time would receive a placement into a position of his 
or her choice after the term of the Service Agreement expired.
Training
    BIA and tribal programs provide a wide range of public safety 
services to Indian Country. These services include uniformed police 
services, criminal investigations, detention management, 
telecommunications, and tribal court assistance. To effectively provide 
these services, staff must receive certification in basic training 
skills related to their employment field. Because many Indian Country 
law enforcement officers cover vast areas of both extremely rural and 
urban terrain which often comprising several thousand square miles, 
high quality and specialized training is vital for protecting both the 
public and our officers.
    Throughout the nation, many other federal and state agencies 
operate their own police academies, training officers in basic and 
advanced techniques to perform law enforcement services. Currently BIA-
OJS operates the United States Indian Police Academy (USIPA) located at 
the Federal Law Enforcement Training Center (FLETC) in Artesia, New 
Mexico. The USIPA provides training to federal, tribal and local law 
enforcement officers who work in or near Indian Country.
U.S. Indian Police Academy History
    Prior to 1968, availability of police training for tribal officers 
was extremely limited. While a few state police training academies 
granted access to BIA and tribal officers, there was a long wait. At 
the federal level, candidates sometimes faced a delay of up to three 
years for admission to the FBI academy. Consequently, actual job 
experience, supplemented with limited formal in-service instruction, 
was the predominant form of Indian law enforcement training and 
education. These limitations precluded effective, professional law 
enforcement services from reaching Indian Country.
    The U.S. Indian Police Training and Research Center was originally 
designed to train of BIA and tribal law enforcement officers, qualified 
potential Indian police officers, and other law enforcement personnel 
working on or near Indian reservations. The basic program was soon 
expanded to provide specialized training on an as needed basis for 
police officers, supervisors and managers, juvenile officers, criminal 
investigators, and jail personnel. By 1971, the Academy was assisting 
and conducting field in-service training as necessary for specialized 
subjects through short duration training sessions.
    After several relocations spanning over 20 years, in January 1993, 
the Indian Police Academy relocated to the FLETC in Artesia, New 
Mexico, the present location of the USIPA.
The USIPA at FLETC
    The mission of the USIPA is to develop and provide law enforcement 
training and technical assistance to federal and tribal law enforcement 
organizations and their personnel. All training programs are designed 
to meet Indian Country law enforcement, employee development, and 
organizational improvement standards.
    The USIPA offers basic training courses for police officers, 
telecommunications operators, and corrections officer candidates. USIPA 
also offers numerous advanced training courses on child abuse 
investigation procedures, community policing, use of force, firearms 
usage, archeological resource protection, police management and 
supervision, crime scene processing, detention, and dispatcher training 
for both tribal and BIA law enforcement officers.
    Currently the USIPA conducts three (3) basic police officer 
training programs (BPOTP) each year. The BPOTP is 16.5 weeks long, 
consisting of 739 hours of instruction. The BPOTP is an integrated 
FLETC Basic Program. USIPA offers Indian Country specific training 
programs which include:

  <bullet> History of the Indian Criminal Justice System
  <bullet> Indian Civil Rights Act
  <bullet> Indian Country Juvenile Law
  <bullet> Indian Country Liquor Law
  <bullet> Indian Child Welfare Act
  <bullet> Indian Country Conservation Law
  <bullet> Indian Country Criminal Jurisdiction
  <bullet> Indian Country Community Orientated Policing
  <bullet> Domestic Violence
  <bullet> Crimes against Women
  <bullet> Specific Indian Country Patrol Procedures Laboratory 
        Exercise
  <bullet> Specific Indian Country Patrol Skill Laboratory Exercise

    These training programs, laboratory and practical exercises address 
many unique aspects of Indian Country law enforcement.
    Every three years the USIPA conducts a Curriculum Review Conference 
to validate basic training programs. Participants from tribal and BIA 
law enforcement programs give insight and make recommendations to 
change or add specific courses. The final training program is submitted 
to the FLETC Evaluation and Analysis Branch (EAB) to validate the 
recommendations. Once EAB validates the recommendations, the new basic 
training program with changes is scheduled.
    Assistant Secretary Echo Hawk is deeply concerned about the 
attrition rates at the USIPA. Since 2007, the average attrition rate at 
USIPA for the basic police class is 56.6 and 38.4 percent for the basic 
corrections class. This is unacceptable. These high attrition rates 
hinder the Department's ability to deploy trained officers in Indian 
Country. The high attrition rates may be attributed to the following 
areas:

  <bullet> Health Screening during initial assessment.

  <bullet> Medical. Cadets will be dismissed due to injury requiring 
        extended medical treatment. Cadets can only miss 5 days of 
        training.

  <bullet> Resignation. Cadets can resign for personal or family 
        reasons with the consent of their employing agency.

  <bullet> Academics. Cadets who fail two academic tests are dismissed. 
        The BPOTP is written at the 9th grade reading and comprehension 
        level. Students can participate in individual study groups and 
        test review sessions the night before each academic exam.

  <bullet> Other. This category is for those cadets who fail a 
        practical evaluation or violate a USIPA rule or regulation. The 
        violation is usually a negative contact with law enforcement or 
        an alcohol related offense.

    Other factors that contribute to our attrition and graduation rates 
may include:

  <bullet> Many tribal and BIA law enforcement programs do not 
        academically prepare cadets for the rigors and challenges of 
        the BPOTP.

  <bullet> Many tribal and BIA law enforcement agencies do not 
        medically screen cadets to attend the USIPA.

  <bullet> Many tribal and BIA law enforcement agencies do not conduct 
        a thorough background investigation of cadets.

    BIA-OJS has, however, had great success with candidates who attend 
the Criminal Investigator Training Program (CITP) utilized by the BIA. 
The CITP provides fundamental training in criminal investigation 
techniques, concepts, and methodologies.
    The CITP is an 11.2 week integrated basic program designed for the 
Federal 1811 series (Criminal Investigators) and tribal investigator 
who conduct criminal investigations into violations of federal crimes. 
Lecture, laboratories, practical exercises, and tests are used to 
ensure that each trainee acquires all of the critical knowledge, skills 
and abilities required of new criminal investigators. Throughout the 
program, each trainee must participate as a member of a small task 
force team in a continuing case investigation. The training equips 
students to interview witnesses, conduct surveillance and undercover 
operations, develop a case, write and execute search and arrest 
warrants, write a criminal complaint, obtain an indictment, and testify 
in a courtroom hearing.
    The CITP is a FLETC based basic program held in Glynco, Georgia and 
instructed by FLETC training staff and partner organizations. 
Approximately one third of the 88 FLETC Partner Organizations that 
utilize the Glynco, Georgia FLETC training site are represented by on 
site staff at Glynco, while BIA has none. Consequently, BIA and tribal 
investigators who attend the CITP do not receive the same level of 
mentoring and support received by students of agencies that maintain 
full-time staff at the FLETC.
    Of the 47 BIA and tribal students who attended the CITP program 
from FY 2008 and 2009, only 3 failed to complete training. This equates 
to a 6.3 percent failure rate for Indian Country law enforcement 
officers, which illustrates a more successful rate as compared to the 
USIPA cadets.
Initiatives
    DOI/DOJ Collaboration: Secretary Salazar and Attorney General 
Holder have created an interagency workgroup, to explore ways to 
improve coordination and communications and fill gaps in the federal 
law enforcement effort. The DOI/DOJ workgroup has met several times, 
forming subgroups to investigate specific topics, and has met with 
representatives from the Department of Health and Human Services. This 
workgroup accelerated its work following the November 5, 2009, White 
House Tribal Nations Conference.
    Pre-Training Notification: Currently, new hires reporting to the 
basic training program have minimal knowledge and understanding of the 
training requirements of the USIPA. To remedy this problem, BIA has 
launched an initiative to provide them with a pre-employment packet 
describing the expectations of the training program to better prepare 
them for life at USIPA.
    Basic Training Program Transition: Currently the USIPA is 
conducting a pilot training program by holding the BPOTP concurrently 
with the Land Management Police Training (LMPT). This pilot period will 
allow management to compare program training standards. The current 
16.5 week program has operated under the same format for 20 years and 
is inconsistent with other Department law enforcement basic training 
programs which benefit from the LMPT program. In addition, while the 
USIPA currently offers four classes per year, it provides only three. 
Reduced course loads and high attrition rates impede new officer 
training and hinder the Department's ability to put trained officers on 
the street.
    The USIPA currently subscribes to a para-military method of 
training. This method of training served its purpose initially, but is 
not as effective to the core group of cadets that are seeking entry 
into the USIPA today. The millennial generation is our primary target 
for recruitment. The LMPT program's emphasis on group learning, team 
development, and strengthening peer bonds will create an environment 
where this next generation can succeed in an academic setting.
    The LMPT program focuses on rural law enforcement which 
accommodates BIA and tribal officers who often work in rural and remote 
locations. The Department uses LMPT for its other law enforcement 
programs. USIPA can conduct LMPT 14 times per year with 8 classes in 
Glynco, GA and 6 in Artesia, NM; however, FLETC can reallocate its 
existing training resources to expand the actual number of classes to 
meet the demand of Indian Country. Having two training locations and 
offering more training opportunities is cost effective for tribes who 
send cadets to USIPA. By reducing class sizes from 48 to 24 we expect 
to reduce attrition. The LMPT is an 18-week training program and 
currently has a 7 percent attrition rate.
    Reduce the Basic Corrections Officer Training Program (BCOTP) Class 
Size: Currently, we require 48 recruits to be enrolled in the BCOTP 
before we conduct the course, which is scheduled 4 times per year. 
Consequently, at least one course each year is cancelled. Recruits 
enrolled in cancelled classes must wait for the next class to occur. By 
reducing the mandatory class size from 48 to 24 and increasing the 
number of classes to 8 per year, USIPA can provide more frequent basic 
training opportunities and reduce the number of cancelled classes. The 
BCOTP is a BIA specific program with a FLETC approved syllabus.
    Recruit Mentoring Program: BIA-OJS plans to develop a formal 
mentoring program for students going through Basic Training. This 
mentoring program will identify at-risk students and provide remedial 
and after hours assistance with academic and practical exercise 
requirements for the basic training program. This mentoring program 
will reduce the current attrition rate and enhance successful 
completion of the basic training program.
    Bridge Training Program: BIA-OJS developed a Bridge Training 
Program to allow new hires who are already certified by a state or 
collegiate academy to meet the mandatory minimum training requirement 
for federal law enforcement service. It was previous policy to require 
state certified officers, regardless of experience, to complete the 16-
week basic training course in Artesia, NM. The Bridge Training Program 
will bridge the gap between the state and collegiate training which 
will allow new hires to become federally-certified and to meet specific 
Indian Country law enforcement course requirements in areas such as: 
Indian Country Law, Criminal Jurisdiction in Indian Country, and the 
FLETC Practical Pistol Course. This program would allow new hires 
already certified by a state academy to quickly meet the minimum 
mandatory training requirement of federal law enforcement service in 
two weeks as opposed to 16 weeks.
    Establish a Northern Plains Advance Training Academy at the United 
Tribes Technical College: OJS is working with the United Tribes 
Technical College in Bismark, ND to provide the proposed Bridge 
Programs at the College, and will consider partnering with other 
potential satellite locations to increase basic certification options 
for BIA and tribal police officers.
    Collegiate Law Enforcement Option: BIA-OJS plans to develop a 
collegiate law enforcement option to address the practical and field 
exercise training not offered by many collegiate certification 
programs. These collegiate programs generally do not provide 
instruction in practical field exercises such as firearms and driving 
required for federal certification. Working with FLETC, we identified a 
solution to this issue by developing another option for the Bridge 
program. The BIA submitted a training syllabus to FLETC Training 
Management Division on October 30, 2009 for review and approval. FLETC 
indicates that once it approves the training syllabus, the four (4) 
week follow-on-basic program will be taught in Artesia, New Mexico. It 
will include courses such as: Indian Country law, firearms, and divers 
training.
    Rotational Training Cadre: BIA-OJS proposes to begin a 3 year 
rotation of correction and police officers to provide training at the 
USIPA and its satellite academies. This will ensure our USIPA 
instructors bring the most current training tactics and methodologies 
to the field and to the training environment.
    Advanced, Specialty and Outreach Training: USIPA is in the process 
of addressing training needs through advanced, specialty and outreach 
training. In 2008, USIPA identified ``anchor points'' of training to 
allow training to be conducted closer to the tribal and BIA law 
enforcement locations.
    Through the efforts of FLETC, Office of State and Local and the 
Rural Policing Institute, additional training programs will be exported 
to the established anchor points. These programs focus on management, 
technical and specific training programs including courses such as: 
Supervisory Leadership. Executive Management, Active Shooter, Highway 
Interdiction, Back Country Tactics, Use of Force, Domestic Violence 
training the trainer, and First Officer Response.
    Working with the Federal Bureau of Investigation, Indian Country 
and Special Crimes Unit, advanced training course offerings will be 
conducted. These courses include:

  <bullet> Critical Incident Stress Management
  <bullet> Introduction to Indian Country
  <bullet> Forensic Child Interviewing
  <bullet> Crime Scene Investigation
  <bullet> Financial Crimes Investigation

    The USIPA has a rich history of service to Indian Country and 
training of law enforcement officers. However, to meet the ever 
changing needs in Indian Country for qualified well trained officers, 
the BIA-OJS proposes to build on our relationship with the FLETC by 
implementing these initiatives and others to improve training for law 
enforcement officers.
    Mr. Chairman, thank you for the opportunity to address a matter of 
such an importance for Indian Country. The Department will continue to 
work closely with you and your staff, tribal leaders, and our Federal 
partners to strengthen the recruitment, hiring, training and retention 
of law enforcement officers in Indian Country, and we appreciate your 
continued commitment to Indian country law enforcement.
    I will be happy to answer any questions you may have.

    Senator Johnson. Thank you, Mr. Garriott.
    Mr. Wright?

STATEMENT OF JOSEPH W. WRIGHT, ASSISTANT DIRECTOR, FEDERAL LAW 
ENFORCEMENT TRAINING CENTER, OFFICE OF ARTESIA OPERATIONS, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wright. Mr. Chairman, Vice Chairman Barrasso, and 
Members of the Committee, on behalf of Secretary Napolitano and 
the Director Connie Patrick of the Federal Law Enforcement 
Training Center, I am honored to testify before this Committee 
today.
    My name is Joseph Wright. I serve as the Assistant Director 
for the Office of Artesia Operations in Artesia, New Mexico for 
the Federal Law Enforcement Training Center, which oversees the 
Indian Police Academy and all other law enforcement training in 
Artesia.
    As the Committee is aware, the FLETC is responsible for 
providing basic law enforcement training to over 88 Federal 
agencies with law enforcement authority and provides advanced 
and specialized training to Federal, State, local, tribal, 
campus and military law enforcement organizations.
    Since its conception in 1975, the Center has developed 
training that brings consistent and up to date technology and 
information to the law enforcement community.
    The history of the Bureau of Indian Affairs consolidated 
training concept with FLETC spans more than 25 years. On 
October 15, 1984, the BIA moved the United States Indian Police 
Academy, which was located a Brigham City, Utah, to the Federal 
Law Enforcement Training Center in Marana, Arizona in order to 
comply with the Congressional mandate that consolidated 
training for all Federal law enforcement the Congress had 
placed on us.
    Upon the relocation of the IPA to FLETC, a curricular 
review was conducted and program designed specifically for 
Indian Country was created to manage and oversee their training 
programs. In 1991, under the direction of BIA Director of Law 
Enforcement Services at that time, a partnership with FLETC was 
created to manage and oversee the IPA. In 1993, the FLETC 
relocated all of its training from Marana, Arizona, which was a 
leased facility, to its own facility in Artesia, New Mexico, 
where IPA continues to operate today.
    The President's fiscal year 2011 budget proposes $807,000 
for BIA training for law enforcement personnel, of which 
$540,000 is attributable to the basic training program. FLETC 
strives to ensure that its training programs are developed with 
the highest standards of today's adult learning environment. 
The entire instructional staff at FLETC is comprised of career 
law enforcement personnel who are highly trained in the 
methodologies of training in a law enforcement environment.
    Indian Country law enforcement personnel face unique and 
complex challenges today in Indian Country, as you all are all 
aware. We have developed training to meet those challenges. For 
example, some of the training programs specific to Indian 
Country include courses in the Indian Child Welfare Act, Indian 
Country jurisdictional issues, and the challenge of working 
alone without assistance of backup for an extended period of 
time due to the ruralness of where they work.
    The Land Management Police Training Program that they are 
currently utilizing provides the core law enforcement training 
offered to all of Department of Interior agencies. The specific 
Indian Country issues are taught as a follow-on to the basic 
program.
    Mr. Chairman, I have read the report provided by the BIA to 
Senator Dorgan, Protecting Indian Country, February, 2010. 
FLETC, working with BIA, has already implemented several of the 
changes in this report. For example, FLETC is offering the LMPT 
Program, Land Management Training Program, versus the basic 
police officer training program prior to this.
    I am pleased to report that we began the first class under 
the LMPT early last month and to date we have not lost a single 
student due to academics, personal resignation or injury. 
Twenty-three of the 24 students remain in the program, and the 
one student who is not there today was removed by his agency, 
terminated for employment, and called home. It had nothing to 
do with the training itself.
    By utilizing the LMPT, PBIA has the option to fill an 
entire class of Indian Country trainees or these trainees may 
join classes of other participating agencies who may need 
agents or officers trained in smaller numbers. Through this 
consolidation training approach, FLETC and the IPA are able to 
meet the training needs of all law enforcement agencies, both 
large and small, as their training needs arise.
    Additionally, a consolidated training approach allows BIA 
tribal officers to train with other DOI law enforcement 
personnel. We must continue to meet the Federal Law Enforcement 
Training Accreditation Board standards and provide consolidated 
training to our agents and officers so that they gain the 
benefit and knowledge of all the Federal, State, local, tribal 
and military law enforcement personnel they will work with 
throughout the years.
    Consolidated training not only provides the best learning 
experience for our agents and officers, it provides the 
greatest cost benefit to the American people.
    I respectfully submit these remarks and am prepared to take 
any questions from the Committee, sir.
    [The prepared statement of Mr. Wright follows:]

Prepared Statement of Joseph W. Wright, Assistant Director, Federal Law 
    Enforcement Training Center, Office of Artesia Operations, U.S. 
                    Department of Homeland Security
    Mr. Chairman, Ranking Member Barrasso, and Members of the 
Committee:
    On behalf of Secretary Napolitano and the Director of the Federal 
Law Enforcement Training Center (FLETC), Connie Patrick, I am honored 
to testify before the United States Senate Committee on Indian Affairs 
to provide insight on the training of law enforcement personnel for 
Indian Country. My name is Joseph Wright and I serve as the Assistant 
Director of the Office of Artesia Operations and have program 
management responsibility for the law enforcement programs conducted at 
the FLETC Artesia. As this Committee is aware, the FLETC is responsible 
for providing basic law enforcement training to over 88 federal 
agencies with law enforcement authority and provides advanced and 
specialized training to federal, state, local, tribal, campus and 
military law enforcement organizations. Since its conception in 1975, 
the Center has developed training that brings consistent and up-to-date 
technology and information to the law enforcement community.
    The history of the Bureau of Indian Affairs (BIA) consolidated 
training concept with the FLETC spans more than 25 years. On Oct. 15, 
1984, the BIA moved the United States Indian Police Academy (IPA) from 
Brigham City, Utah to the FLETC in Marana, Arizona in order to comply 
with a congressional mandate to consolidate training for all federal 
law enforcement personnel. Upon the relocation of the IPA to FLETC, a 
curriculum review was conducted and a program designed specifically for 
Indian Country law enforcement personnel was developed and implemented. 
In 1991, under the direction of the BIA Director of Law Enforcement 
Services, a partnership with the FLETC was created to manage and 
oversee the IPA. In 1993, the FLETC relocated all of its training from 
Marana, Arizona to the FLETC Artesia, New Mexico, where the IPA 
continues to operate today.
    The President's FY 2011 budget proposes $807,000 for BIA training, 
of which $540,000 is attributable to the LMPT.
    FLETC strives to ensure that its training programs are developed 
with the highest standards in today's adult learning environment. The 
entire instructional staff at the FLETC is comprised of career law 
enforcement personnel who are highly trained in the methodologies of 
training in the law enforcement environment. Indian Country law 
enforcement personnel face unique and complex challenges, and we have 
developed training to meet those challenges. For example, some of our 
training programs specific to Indian Country include courses on the 
Indian Child Welfare Act, Indian Country jurisdictional issues, and the 
challenges of working alone, without assistance or backup, for an 
extended period of time. The Land Management Police Training (LMPT) 
program provides the core law enforcement training offered to all 
Department of Interior (DOI) Law Enforcement Agencies. The specific 
Indian Country issues are taught as a follow-on to the basic program.
    Mr. Chairman, I have read the report provided by the BIA to Senator 
Dorgan (Protecting Indian Country Report, February 3, 2010).
    FLETC, working with the BIA, has already implemented several of the 
changes this report recommends. For example, FLETC is offering the LMPT 
versus the Basic Police Officer Training Program to BIA officers. I am 
pleased to report that we began the first class under the LMPT program 
early last month, and to date we have not lost a single student due to 
injury, academics or personal resignations, 23 of the 24 students 
remain in the program.. One individual was removed by his agency due to 
termination of employment. By utilizing the LMPT, BIA has the option to 
fill an entire class of Indian Country trainees or, these trainees may 
join classes of other participating agencies who may need agents/
officers trained in smaller numbers. Through this consolidated training 
approach, FLETC and the IPA are able to meet the training needs of all 
law enforcement agencies, both large and small, as their training needs 
arise. Additionally, a consolidated training approach allows the BIA 
and tribal officers to train with other DOI law enforcement personnel.
    We must continue to meet Federal Law Enforcement Training 
Accreditation Board standards, and provide consolidated training to our 
agents and officers so that they gain the benefit and knowledge of all 
of the federal, state, local, tribal and military law enforcement 
personnel they will work with throughout their careers. Consolidated 
training not only provides the best learning experience for our agents 
and officers, it provides the greatest cost benefit to the American 
people.
    I respectfully submit these remarks and I am prepared to answer any 
questions the Committee may have. Thank you.

    Senator Johnson. Very good.
    Senator Barrasso, do you have an opening statement?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I do, 
and first I would like to thank you for holding this hearing to 
examine what I believe is a real problem in Indian Country: 
recruiting, training and retaining officers to serve on BIA and 
tribal police forces.
    I really want to tell you how much I appreciate and welcome 
my friend, Chairman Ivan Posey of the Eastern Shoshone Tribe, 
who has come from Wyoming to testify about these challenges.
    Today, I have a lengthy statement. I would like to just 
make it part of the record, Mr. Chairman, so as not to delay 
the hearing.
    [The prepared statement of Senator Barrasso follows:]

  Prepared Statement of Hon. John Barrasso, U.S. Senator from Wyoming
    Good afternoon, and thank you Mr. Chairman for holding this hearing 
to examine what I believe is a real problem in Indian Country: 
Recruiting, training, and retaining officers to serve on BIA and tribal 
police forces.
    I appreciate and welcome Chairman Posey of the Eastern Shoshone 
tribe who traveled from Wyoming to testify about these challenges.
    BIA recently released its report ``protecting Indian Country'' 
outlining the challenges and current status of hiring, recruiting, and 
retaining adequate law enforcement. I am particularly interested in how 
the recommendations in the BIA's report will complement its efforts to 
implement the High Priority Performance Pilot Project for Crime 
Reduction. I understand that this pilot is now underway on the Wind 
River Indian reservation.
    Based on Committee hearings and information provided by tribal 
leaders, we know that in some Indian communities, public safety is much 
more than just an issue--it's a crisis. In recognition of this crisis, 
the Committee has had 2 hearings on law enforcement issues during this 
Congress, one on reservation gang activities and another on your bill, 
Mr. Chairman, the Tribal Law and Order Act.
    The question of public safety has been raised during other hearings 
in the past year as well. The Chairman and I both raised law 
enforcement issues and tribal police staffing levels with Secretary 
Salazar at our hearing in February of 2009. A few months later, we 
raised law enforcement issues with Larry Echo Hawk during his 
nomination hearing in May of 2009. On both occasions, I cited the 
police force on Wind River Indian Reservation as an example of 
dangerously low police staffing levels.
    Unfortunately, I think the situation on the Wind River Reservation 
is an example of conditions on other reservations. Tribal leaders on 
the Wind River Indian Reservation speak to me about law enforcement 
issues and BIA police staffing shortages almost every time we meet back 
in Wyoming.
    According to the BIA's 2008 Crime Report, the crime rate on the 
Wind River Indian Reservation is about 3\1/2\ times the national 
average. Right now, we have a grand total of 6 BIA officers patrolling 
this 2.2 million acre reservation. That's 6 police officers working an 
area almost the size of the State of Connecticut, which translates--at 
most--to 2 or 3 officers on any given shift. That's a frightening 
prospect for the reservation, communities, and that's why I keep 
raising this staffing issue.
    It is my understanding that the Department of the Interior is 
attempting to enlarge the BIA patrol force on the Wind River 
Reservation through increased hiring and temporary details. We've been 
told that there are 2 officers who will be deployed as soon as their 
training and background checks are complete--a minimum of 4 months from 
now. They have recruited an additional 8 officers who have not yet 
started training but hopefully will begin training soon. And finally, 
the BIA plans to extend offers to 2 more patrol officers.
    So if everything works out, we should have a total of 18 permanent 
patrol officers on the Wind River police force, which is the maximum 
number of offices funded for the reservation. And yet, Mr. Chairman, 
according to the 2008 BIA Crime Report, the level of need on the 
reservation is 29 officers. Which means that even in the best case 
scenario, our patrol officer staffing will eventually be at 62 percent 
of the level of need. That's much better than the current 20 percent of 
need, and I do appreciate the Department's efforts, but no community in 
the United States should have a police force that is almost 40 percent 
understaffed and yet many Indian communities across this nation face 
that reality.
    We simply must overcome the staffing problem to provide safety and 
security to reservation communities. The Department of the Interior 
must put successful methods in place nationwide, and tribal communities 
must do their part as well to promote that success and they should have 
the tools they need to do that.
    I think the Tribal Law and Order bill includes many ideas that will 
help the Department and the tribes do their jobs. But one change that 
would have an immediate effect on public safety would be getting more 
police officers on the ground. Plain and simple, we need more manpower 
patrolling our Indian communities.
    Mr. Chairman, I appreciate that you are examining this matter. It 
is one of the most important issues before the Committee. And I also 
thank the witnesses for coming these long distances to testify today.

    Senator Johnson. Thank you.
    Mr. Garriott, currently, how many vacancies currently exist 
in South Dakota, including police officers, criminal 
investigators, and corrections officers?
    Mr. Garriott. Mr. Chairman, currently the number of 
vacancies existing in South Dakota, I don't have that 
particular information.
    Mr. Thompson, do you have that?
    We would be happy to provide that to you at a later time.
    Senator Johnson. Yes. Is there any means of reciprocity 
between the BIA officers and State and local officers to fill 
the gaps? In South Dakota, as you know, we have many 
checkerboarded jurisdictions. And it gets complicated assuring 
that law enforcement and law and order are able to arrest 
people who murder. And are there any incentives for that?
    Mr. Garriott. Mr. Chairman, there are two mechanisms by 
which we can move forward with, as you said, some kind of a 
reciprocity. First, through cross-deputation agreements, we can 
work with local State law enforcement personnel to authorize 
and to enforce tribal law on the reservations.
    However, this is something that has to be driven by the 
tribe. It is really up to the tribe to make that determination 
on whether they want to move forward with a cross-deputation 
agreement.
    We also have the authority to enter into service agreements 
where necessary with local law enforcement personnel, and that 
can be done at both the tribal level or at the BIA level.
    Senator Johnson. Do you know which BIA law enforcement 
region has the highest rate of crime?
    Mr. Garriott. It is my understanding that it is actually 
the Navajo Nation region that has the highest rate of crime.
    Senator Johnson. Standing Rock Sioux Tribe recently 
received a surge of officers in response to an outbreak of 
crime at that reservation. Do you anticipate this tactic may be 
used in the future?
    Mr. Garriott. We absolutely do. Operation Dakota 
Peacekeeper was, in our view, a big success. And right now, we 
are moving forward with a series of high priority performance 
goals that the Department is pursuing, and our goal is to see 5 
percent reduction of crime on four Indian reservations. Those 
reservations are Standing Rock, Rocky Boy in Montana, Wind 
River, and Mescalero Apache in New Mexico.
    Our first and foremost priority in that effort is to 
increase police officers on the ground and to institute a 
community policing initiative, and this strategy is based on 
the successes that we saw in Dakota Peacekeeper. So we are 
looking at ways in which to institutionalize those tactics that 
led to success.
    Senator Johnson. Mr. Wright, do you know how many 
candidates that enter the Academy and fail to complete the 
training are from South Dakota and the Great Plains region? And 
what is the most common cause for that incompletion?
    Mr. Wright. Sir, I do not know the exact number of students 
that came from South Dakota that have failed the program. I can 
tell you that the primary cause for attrition within the basic 
police training program are twofold: usually, personal 
resignations which take place within the first two or three 
weeks of the training program; and then usually the legal block 
of instruction that entails constitutional law, 18 USC, 21 USC.
    Senator Johnson. Do you believe that if there were an 
alternate facility located closer to the Great Plains that we 
would see more completion rates from those applicants?
    Mr. Wright. Sir, I don't believe so. Statistically 
speaking, all of the Native American tribes, as well as all the 
Bureau of Indian Affairs, their criminal investigators attend 
our Glynco facility. The attrition rate for those individuals 
attending C.I. training is 6 percent, which is the norm across 
for all the agencies that attend.
    The Land Management Training Program that we just started, 
which we are running simultaneously with one of the old basic 
programs, is basically what we are seeing is and we are five 
weeks into the program, we have not had one personal 
resignation out of that program to date, which is highly 
unusual.
    So I think the changing of the mind set of how we do basic 
training for law enforcement for Indian Country has more to do 
with the attrition and what we do versus where they are 
actually being located at.
    Senator Johnson. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I would like to follow along your line of questioning. I 
think the situation on the Wind River Reservation is 
unfortunately an example of conditions on other reservations. 
The tribal leaders on our Wind River Reservation speak to me 
about law enforcement issues and BIA police staffing shortages 
just about every time that we meet back in Wyoming.
    According to the BIA's 2008 Crime Report, the reservation 
crime rate was about three and a half times the national 
average. Ivan, just interrupt me if this isn't consistent with 
what you are seeing.
    Right now, we have a grand total of six BIA officers 
patrolling the 2.2 million acre reservation. That is six police 
officers working an area almost the size of the State of 
Connecticut, which translates at most to two to three officers 
on a given shift. That is a frightening prospect for the 
communities and it is why I keep raising this issue.
    So Mr. Garriott, based on BIA's own reports, Wind River 
staffing is far below the funded level of 17 officers and the 
level of need which is 29 officers. So we have six, funded at 
17, level of need at 29.
    Does the Department intend to raise the levels of law 
enforcement staffing to meet the level of need of 29 officers 
for the Wind River Reservation? How do we get to that?
    Mr. Garriott. We do intend to put more police officers on 
the ground at Wind River. The exact staffing ratio for each 
reservation is something that is unique based on the size, 
population, rates of crime, et cetera. But our first and 
foremost priority is to start spending money that we do have. 
And as you mentioned, we have unfilled positions there and we 
are working aggressively to fill those positions.
    I stated earlier in my opening statement that we have made 
over 50 offers to police applicants, and we are assigning those 
new officers based on priority, and Wind River is one of our 
top priorities. So we have I believe made eight or nine offers 
and those police officers will be staffed there.
    In the meantime, while these new officers go through 
training, we are working with the Bureau of Land Management and 
the National Park Service to backfill those positions with law 
enforcement personnel from those agencies. We are also working 
with several tribes on a service agreement to get some of their 
law enforcement out to these reservations.
    Senator Barrasso. Well, I do appreciate that the Department 
is working on that so-called high priority performance goal, 
the pilot program on the Wind River Reservation.
    Anything else you can tell me in terms of the status of 
implementing that plan of action for the pilot program?
    Mr. Garriott. We have had a series of meetings with the 
leadership from those tribes. The law enforcement personnel 
have been conducting a series of studies, working, going out 
and going door to door in the communities to assess the 
community's views of law enforcement.
    And we plan on holding a stakeholders meeting with the 
leadership from those organizations and bringing ourselves to 
the table to meet with them and to find other innovative ways 
in which we can work to institute this community policing 
initiative.
    And it is not necessarily just focused on law enforcement, 
but we will bring other departments within Interior such as BIA 
Social Services.
    Senator Barrasso. Of course, you know, Chairman Posey is 
here today, so I would ask: What do you need from the tribes? 
With the Chairman here, what do you need from tribes to 
facilitate the implementation of your pilot program? Is there 
more that we can do today or that we could have a discussion on 
terms of trying to bring people together?
    Mr. Garriott. I think first and foremost has been buy-in. 
And you know, in our initial conversations with the tribal 
Chairmen from those tribes, it has been nothing but positive 
and they have been very excited. I would mention that the 
program at Rocky Boy. Rocky Boy is a 638 law enforcement 
program, so it is a little bit different because it is not 
necessarily a direct service as in the other three locations.
    Mr. Thompson, from an operational standpoint, do you have 
anything to add?
    Mr. Thompson. Yes, thank you.
    And thank you, Mr. Vice Chairman, for the opportunity to 
speak.
    You asked about the implementation phase of the high 
priority performance goal. And I think it is important to 
mention, Senator Franken mentioned it a while ago, the absence 
of accurate crime data.
    One of the first steps in the implementation of this high 
priority performance goal was to actually go out and hand pull 
police reports to try and identify what those base crime rates 
were for all four of these locations. Utilizing those numbers 
to develop those crime trends so that we can start proactively 
addressing criminal acts within the reservations has been a key 
part of the implementation phase.
    We met with Chairman Posey this morning. We have met with 
him a few times throughout this process, and we are very 
excited about moving into the development of the specific 
strategy for each of these locations so that we can begin to 
address the reduction in crime.
    Thank you.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    We will start out with Mr. Garriott. In your testimony, you 
talked about, well, to boil it right down, only two new 
officers prior to October, 2009. You talked about employing 51 
in the previous eight months, and correct me if I am wrong on 
that.
    I have a couple of questions. Number one, is that 51 net 
gain over the last eight months? Or is that just offsetting 
what was lost? Or what kind of increases are we talking about? 
Because what everybody has talked about up here and what we all 
know in Indian Country is they need more feet on the ground. So 
did that 51 result in more police officers, net?
    Mr. Garriott. Yes, previously over the last year, we had a 
net gain of two police officers. Since December 1st of 2009, we 
have seen over 2,600 applicants, nearly 2,700 applicants and we 
have extended over 50 offers. So that translates into a net 
gain of 50-plus police officers.
    In the meantime, we may have had a few retirees or people 
moving on to new jobs, but overall, it is a very big gain and a 
big gain within a period of several months compared to the last 
year.
    Senator Tester. Okay. And the Chairman may have asked this 
question. I thought I heard it, and I will ask it again if that 
is the case. How many vacancies do you have right now that need 
to be filled?
    Mr. Garriott. We have 191 funded vacancies.
    Senator Tester. So if you get 191 people, does that mean 
you will meet the needs in Indian Country.
    Mr. Garriott. We will not meet the full needs in Indian 
Country. However, we will be spending our money effectively and 
making the best use of it. We also can look at ways in which to 
allocate those staffing needs.
    Senator Tester. Okay. So you have 191 vacancies. Why can't 
you fill them? They are funded.
    Mr. Garriott. Why can't we fill the current funded? Well, 
in the past, we have had problems recruiting and retaining 
police officers. We have had problems.
    Senator Tester. Why is that?
    Mr. Garriott. We have had a high attrition rate because, 
for a number of factors: high stress, housing, long hours, as 
mentioned earlier that sometimes the pay is not comparable to 
other law enforcement agencies.
    Senator Tester. Could you give me any idea on how deficient 
the pay is on these 191 funded positions?
    Mr. Garriott. I actually don't have that figure.
    Senator Tester. I mean, it would be good. I can tell you 
that when I was in the State legislature, we dealt with a lot 
of law enforcement issues in the local ground. And I can tell 
you that just about every police officer I talked to talked 
about irregular hours, long hours. It is a tough job.
    And what makes your job tougher is the question, and why. 
And if it is housing, that is fine. I mean, that is an issue we 
can also deal with on this Committee as we move forward.
    I want to jump to Mr. Wright. In your testimony, and it 
directly dovetails with the answers that Mr. Garriott gave me. 
In your testimony, and you actually read this, it said, 
``Through this consolidated training approach, FLETC and the 
IPA are able to meet the training needs of all law enforcement 
agencies both large and small as their training needs arise.''
    Are you talking about instructors? Or are you talking about 
police on the ground?
    Mr. Wright. I am talking about police on the ground, sir.
    Senator Tester. Okay. So I am hearing those guys' needs 
aren't met.
    Mr. Wright. Sir, normally throughout the year, there are 
four basic police programs that have normally been scheduled 
for training of BIA and tribal police officers. Normally, three 
of those classes are filled. The fourth class is canceled due 
to a lack of applications to fill a full class of 50 people, so 
that cycle of 200 people.
    But the attrition rate in the Academy has been right at 
above 50 percent. And it deals with some of the way that we 
actually are doing paramilitary-type training and changing the 
program. The BIA was in a very unique program that was specific 
to Indian Country. They trained by themselves in a group of 48 
students per class.
    We have moved from that model into what we call now the 
Land Management Training Program. That program consists of 24 
students per class. We have added six classes on the books at 
Artesia, eight of those in Glynco. And those programs now are 
run with all of Interior. As, sir, the testimony just a minute 
ago, they are actually touching Bureau of Land Management and 
Fish and Wildlife to help support them until they can get their 
hiring done. So that is the same training program for all of 
them.
    Senator Tester. Is the FLETC and the IPA training programs 
applicable to the people that Mr. Garriott wants?
    Mr. Wright. Yes.
    Senator Tester. So how can you in your testimony, you can 
say that, I guess, you are able to meet the needs, but you are 
not meeting the needs.
    Mr. Wright. Sir, I would tell you that every request for 
training that has been put forth to FLETC, every slot that they 
have requested has been filled and started. It is the attrition 
rate in itself within the training that has hurt as far as 
returning those individuals back to the fill.
    Senator Tester. I guess, and my time has run out, Mr. 
Chairman, so that I am going to turn the mike over to my good 
friend from Minnesota. But I guess I don't understand that 
statement, then. If you are able to meet the--there is a 
disconnect here. If you are able to meet the training needs of 
law enforcement agencies both large and small as the training 
arises, yet we have an incredible disparity in Indian Country. 
That tells me we are not meeting the needs.
    Mr. Wright. Well, sir, FLETC is required to train those 
individuals who have been hired. And as the testimony just was, 
they have put forth 51 offers within the last eight months.
    Senator Tester. Right, but they are still 191 short.
    Mr. Wright. Yes, but those people have not come to FLETC to 
be trained yet, sir. If they had 191 people ready to be trained 
tomorrow----
    Senator Tester. You could do it.
    Mr. Wright.--through our programs and the way we are 
scheduled, we can actually probably train that entire 191 
within the next five-month period.
    Senator Tester. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    Let me just follow up on that. So what you are saying is if 
there are more officers recruited that you could train them.
    Mr. Wright. That is correct, sir.
    Senator Franken. Okay.
    Mr. Garriott, the Chairman couldn't be here today and he 
asked me to ask the question. Congress has appropriated $990 
million for law enforcement services at the BIA over the past 
four years. On October 30, 2009, the President signed the 
Interior appropriations bill which provided $303 million in 
funding for BIA law enforcement services. And I understand 
these funds have not gone out to the tribes that have self-
determination contracts who can't pay their officers.
    Can you please tell the Committee the reason for this delay 
and when the funding will go out to the tribes? The Chairman 
tells me the tribes have called this Committee because they 
have not received the money from the BIA.
    Mr. Garriott. Are you referencing 2010 money? Or are you 
talking all increases? Just for clarification.
    Senator Franken. I believe it is 2010 money.
    Mr. Garriott. We have not allocated that money yet, but we 
plan to. We will be working aggressively to do so in an 
efficient manner.
    Senator Franken. Okay. Well, I would urge you please to do 
that as soon as possible. Thank you.
    You know, I look at this and the reason for attrition, it 
just makes me--I just know that there is all kinds of reason 
for attrition--paying, housing. When you have, as Senator 
Barrasso said, six officers on a reservation the size of Wind 
River, it can't be safe. These guys go out and patrol by 
themselves, right? Either of you.
    Mr. Wright?
    Mr. Garriott. Oftentimes.
    Senator Franken. So is it more dangerous being an officer 
in Indian Country than elsewhere?
    Mr. Garriott. I would let Mr. Thompson answer that, but 
first I would, you know, just like to again emphasize that we 
are working very aggressively to get more officers on the 
ground.
    Mr. Thompson. Thank you, Mr. Garriott.
    Senator Franken, we talked about the high crime rates, 
about the three and a half times the national average. We have 
seen reservations that have reported 20 times the national 
average crime rates. The fewer resources that we have, the 
fewer officers that we have working in those types of rural 
environments with between three and a half and 20 times the 
national average crime rates, it is definitely more dangerous 
to work in those areas.
    Senator Franken. So that can be a reason for attrition as 
well.
    Mr. Thompson. Absolutely.
    Senator Franken. And for not being able to recruit people.
    Mr. Thompson. Absolutely.
    Senator Franken. And so it can be more dangerous and it is 
more dangerous because you are underfunded and understaffed.
    Mr. Thompson. Right.
    Senator Franken. And you know, I think these numbers that 
where the need is, you know, so many people per 1,000 people, 
so many, I mean, that is based on a normal crime rate. Right? 
So if you have three and a half times the crime rate, you would 
think you would need three and a half times as many as normal 
population. Right? Wouldn't that follow?
    Mr. Thompson. That is correct, sir.
    Senator Franken. So as it is, we have about like half the 
number that we need to meet the goals which are less than the 
normal goals you would have outside of Indian Country, and yet 
the need clearly is higher than that. That goal you are not 
even trying to get to. Is that right? Is that fair to say?
    Mr. Garriott. First and foremost is filling the vacancies 
that we do have.
    Senator Franken. I understand.
    Mr. Garriott. And spending that money efficiently.
    Senator Franken. Before the Chairman asked about having 
another Academy and maybe having one on the Plains, Northern 
Plains. The United Tribes Technical Colleges have talked about 
having an Academy there. Would that be helpful to you, Mr. 
Garriott?
    Mr. Garriott. It would be very helpful in our recruitment 
efforts. It was past BIA policy that we required State-
certified police officers to go through the basic 16-week 
training down in Artesia. This was regardless if they had 10 
years law enforcement experience.
    We have since changed that policy so that they complete 
this two-week Bridge Program where they receive Federal 
firearms certification and courses in Indian law that they can 
then be a Federal police officer. So it will cut down the 
amount of training time and is a big incentive.
    Senator Franken. Okay. I know you have a Bridge Program 
there, but I would suggest that maybe having a full program 
there might be helpful as well.
    My time is up. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, members of this panel. You may 
be excused.
    Mr. Garriott. Thank you.
    Mr. Thompson. Thank you.
    Mr. Wright. Thank you, sir.
    Senator Tester. I just have a couple questions.
    Senator Johnson. Hold on. I guess Senator Tester has 
questions.
    Senator Tester. My apologies. You guys are almost off the 
hook.
    I just had a couple of questions for Mr. Wright. You guys 
train a lot of folks every year.
    Mr. Wright. Yes, sir.
    Senator Tester. Overall, not just Native police officers.
    Mr. Wright. United States Border Patrol, CBP, air marshals.
    Senator Tester. How many people would you say you train?
    Mr. Wright. Last year, there were over 60,000 students went 
through the Federal Law Enforcement Training Center sites.
    Senator Tester. Just from your perspective, I mean, we are 
on the Indian Affairs Committee here. We have had many, many 
hearings about law enforcement in Indian Country and how 
deficient it is and how it takes away from quality of life, 
safety, all that stuff.
    In your assessment, if you can assess it, would Indian 
Country be one of the biggest needs out there?
    Mr. Wright. I think the issue of retention and the number 
of officers that Indian Country lacks today is one of the 
biggest crises we face. Two years ago, through the past time, 
of course, our Border Patrol Initiative, as you are well aware 
of, just got through doing that. In 2002, the United States air 
marshals was the biggest need we had.
    Senator Tester. Yes, but right now?
    Mr. Wright. Right now, today, I would tell you that Indian 
Country has the largest need for law enforcement that I am 
aware of.
    Senator Tester. I appreciate the assessment. Do you do 
special training for Native American law officers?
    Mr. Wright. We do specialized and advanced training for all 
of our agencies, yes, sir.
    Senator Tester. Yes, but Senator Franken just asked a 
question about safety in Indian Country.
    Mr. Wright. Yes, sir.
    Senator Tester. And he is spot on with that. So, I mean, 
are you giving those officers the tools to deal in areas where 
they can go in, I mean, it is, to be quite, quite frank, it is 
different in Rocky Boy, Montana than it is 35 miles away in Big 
Sandy, Montana.
    Mr. Wright. Yes, it is, sir.
    Senator Tester. So are you giving those folks those tools? 
And has the BIA asked you to give your students----
    Mr. Wright. Yes, sir. The training program that apparently 
the BIA has gone through with the LMPT is based on for rural 
law enforcement personnel.
    Senator Tester. Okay.
    Mr. Wright. Those individuals who will be in one man units 
may not have backup close to them.
    Senator Tester. Right.
    Mr. Wright. They could be hours away. They may never see 
it. They may also have to take that case from the very 
beginning, as no criminal investigator may show up where they 
would have to process that case and take it all the way to the 
U.S. Attorney's office. And that is what the LMPT Program does 
for them.
    Senator Tester. The reason I asked is why is there a Bridge 
Program then?
    Mr. Wright. The Bridge Program, sir, is based upon--what 
they are talking about is when there are 22 State academies 
that have been recognized over the years through BIA. If you 
attend a State Police Academy, the one problem that you are not 
going to get is you are not going to get Indian Country 
jurisdiction.
    Senator Tester. Okay.
    Mr. Wright. You are not going to get the Indian Child 
Welfare Act.
    Senator Tester. So what you are saying is your graduates 
don't have to go to the Bridge Program. They are ready to go.
    Mr. Wright. That is correct, sir. They already get all that 
in their basic.
    Senator Tester. Is that correct?
    Mr. Wright. That is correct.
    Senator Tester. Okay. Do you have the ability to move money 
around in your budget?
    Mr. Wright. No, sir.
    Senator Tester. You don't?
    Mr. Wright. I don't. No, not at my level, sir, no.
    [Laughter.]
    Senator Tester. Okay. Well, here is a question for you and 
you might now take it to the person who is at that level.
    There is about $280 million is your budget that gets 
appropriated to your agency for training. About $800,000 is 
spent on training for Native Americans. That is the figure that 
I got from people who know.
    The question I have is, you were very honest about the 
needs in America, about where the most needs were. In a $280 
million budget, $800,000 is less than 102/80th of that budget.
    Mr. Wright. If I could, sir?
    Senator Tester. You bet.
    Mr. Wright. That number is appropriated by the Congress to 
us based upon the projections that are given to us by the 
Bureau of Indian Affairs. That number that you are seeing 
entails those basic police officers that go through basic 
training, those who attend the Criminal Investigators Training 
Program for C.I.'s, and any advanced training they may have 
requested that is in that----
    Senator Tester. So what you are saying is----
    Mr. Wright. That $800,000 that you see, sir, is what they 
requested that we spend towards them to make sure that their 
training----
    Senator Tester. So if they requested more because they 
thought you could get more officers out, you would put more 
money in that line item?
    Mr. Wright. That line item would be increased, sir, based 
upon the numbers that they are asking for, but that is for all 
of our----
    Senator Tester. That is cool. We like that. Do you guys 
want to keep that in mind?
    [Laughter.]
    Senator Tester. Well, I think it is actually, you know, we 
poke fun at it. The truth is that if you are living in an area 
where you are not safe, it is the pits. And we need to figure 
out how to get this doggone thing fixed. We honestly have to 
get it figured out. We can spend all the money we want and it 
ain't going to happen for Indian Country until we get some 
safety stuff going on.
    And I am not sure the $990 million that the Chairman talked 
about in his opening statement has been spent to the best 
ability to get police on the ground. And I will just be quite 
frank on that. $990 million is a lot of dough, and we should 
have a lot more than 50 additional officers or 52 additional 
officers on the ground over the last four years, in my opinion, 
and I would argue that for a while.
    Last question and I will let you go, and I thank you for 
your patience. Is there additional cost to the tribes to run 
them through the UTTC Program, the Bridge Program? And if there 
is, why aren't you requiring the folks to do the training 
before to take care of it? Because these guys just said, if you 
request them the extra money, they will do it.
    Mr. Garriott. The problem isn't necessarily, you know, the 
money to train the police officers. It is recruiting and 
hiring. And so actually we have had to cancel classes at the 
IPA Program because we just weren't able to hire enough 
individuals.
    Senator Tester. Okay. Well, I don't know what is happening. 
You have 20 percent to 80 percent unemployment in Indian 
Country and if they are trained right, they could make a good 
living at it. I am not saying it is for everybody, but maybe 
the recruitment needs to be stepped up then, if that is the 
case. Just a thought.
    Mr. Garriott. Absolutely, and we are taking those steps, 
and as evidenced by the numbers that we have seen in the last 
couple months and the work of the Office of Justice Services, 
we are moving in that direction.
    Senator Tester. Thank you very much, and I appreciate your 
patience. Thank you, guys. I appreciate what you do, too. Thank 
you.
    Senator Johnson. Does Senator Franken have anything else?
    This panel may be excused finally.
    Mr. Garriott. Thank you.
    Senator Johnson. The second panel is comprised of the 
Honorable Myra Pearson, Chairwoman, Spirit Lake Sioux Tribe, 
Fort Totten, North Dakota, accompanied by Dr. David Gipp, 
President, UTTC; the Honorable Ivan Posey, Chairman, Eastern 
Shoshone Tribe, Fort Washakie, Wyoming; and Mr. Gary Gaikowski, 
Chief of Police, Sisseton Wahpeton Oyate, Agency Village, South 
Dakota.
    I have a note here that says remind the second panel of the 
five-minute rule. I will turn to Myra Pearson and David Gipp 
who have a 5:30 flight, and I understand that.
    So Myra and David Gipp, proceed.

STATEMENT OF HON. MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE NATION; 
 ACCOMPANIED BY DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                            COLLEGE

    Ms. Pearson. Thank you, Mr. Chairman and Vice Chairman and 
Committee Members. Thank you for this opportunity this 
afternoon to provide testimony here.
    I have listened to the first panel and a lot of the stuff, 
you know, I have heard, I have said before. I have been here to 
Washington to testify for these very things. And I guess today 
I am going to respectfully ask that I am able to leave this 
testimony, that I would like to summarize and leave it to, that 
it be a part of the record.
    And I would like to summarize some of this stuff. First and 
foremost, I am the Chairwoman for the Spirit Lake Tribe in 
North Dakota. And secondly, I am also the Chairwoman for the 
Board of Directors at the United Tribes Technical College 
located in Bismarck, North Dakota.
    Accompanying me this afternoon is Dr. David Gipp, who is 
the President of United Tribes.
    As I said, you know, in 2007, our tribe a community-wide 
assessment and strategic plan to identify and prioritize issues 
facing our communities and to strategize the best practices to 
enable us to address those issues. During that effort, the 
improvement of law enforcement services on the Spirit Lake 
Reservation were identified as a priority for development and 
enhancement.
    While the tribe has continued a dialogue with the Bureau of 
Indian Affairs for decades, the blatant inefficiencies with 
respect to law enforcement and tribal justice as a whole remain 
unresolved and in many respects the issues have compounded over 
the years.
    The issues I see with the current law enforcement services 
provided by the Bureau of Indian Affairs include, and this is 
where I will summarize, we have officer shortages. We have lack 
of training and inadequate facilities. I have on several 
occasions made recommendations to assist in resolving some of 
the above-stated issues. However, it seems that the BIA is not 
interested in resolutions, but rather is attempting to close 
what limited facilities and services they are providing in 
tribal communities.
    In my opinion, the approach that the BIA has taken in 
addressing justice issues in tribal communities has 
demonstrated that the agency is completely out of touch with 
Indian Country, and that there are far too many people climbing 
the ranks and leaving the field offices ill-equipped to meet 
the needs of the communities they are supposed to be serving.
    I think it is time for the United States Congress to take a 
hard look at the upper level administration within the Bureau 
of Indian Affairs and assess what needs to improve within the 
leadership of the Bureau of Indian Affairs.
    In my mind, there are several potential avenues that may be 
pursued that would support the improvement of BIA law 
enforcement services with respect to recruitment, retention, 
training and hiring. Such avenues will include recruitment and 
retention. There are several tribal colleges across the Nation 
that would serve as an excellent pool for the recruitment of 
prospective law enforcement officers. The BIA has done little 
to focus on post-secondary educational institutions to actively 
recruit qualified candidates to enter BIA law enforcement 
services.
    At one point in time, the Spirit Lake Tribe had upwards of 
13 open but unfilled officer positions. When inquiry was made 
as to why such vacancies existed, the Aberdeen area office 
representatives explained that people who wrote the entrance 
exam were unable to pass, despite the fact that it was deemed 
to be a ninth grade level examination.
    This statement speaks to the fact that the BIA is focusing 
their recruitment in the wrong place with the wrong people and 
using the wrong means. Hanging posters around the community 
does not qualify as active recruitment, in my mind. I believe 
that the local agency should be engaging our youth and people 
who are demonstrating an interest in pursuing careers in 
criminal justice.
    A simple biannual visit to area community college should be 
a part of the responsibilities for active duty law enforcement 
officers. Additionally, the placement of officers plays a big 
role in retention. And if efforts are made to ensure placement 
closer to an individual's home community, that would be a 
significant factor in recruitment and retention, not to mention 
that this promotes community-oriented policing and investment 
in our tribal communities.
    Hiring. There is little or no information made available to 
the tribe on hiring process for BIA law enforcement officers. 
We were previously informed that once positions are posted, the 
prospective candidates must submit an application, and upon 
passing an initial screening, must also pass a written 
examination and the basic training academy, which is located in 
Artesia, New Mexico.
    Currently, the training facility in Artesia is the only BIA 
training facility in the Nation. The fact that recruits are 
expected to relocate for an extended period of four months is 
often a barrier to employment as most qualified individuals 
have dependent children and family members.
    Training is also regional. Academies are an essential part 
of providing relevant training for recruits and active duty law 
enforcement officers. It has been clearly stated by tribes for 
many years that the needs for tribes and the demographic of 
tribes vary greatly. The development of regional academies 
would foster environments in which general law enforcement 
training could be provided. But it also provides a tremendous 
opportunity for specific training that is relevant to the 
tribes in a region.
    The Training Academy should focus on basic training for new 
offices and should also include continuing education for 
existing officers. Continuing education would be available 
regardless of an officer's desire to change their rank or 
position within the BIA.
    At this time, Mr. Chairman, I would like to turn what is 
remaining of my time over to Dr. David Gipp, who is the 
President of United Tribes and is another reason why we are 
here today to promote United Tribes as one of the training 
sites.
    Senator Johnson. Please be brief, Mr. Gipp.
    Mr. Gipp. I will be very brief, Mr. Chairman. Thank you 
very much.
    I would just point out that United Tribes, which is located 
in Bismarck, North Dakota, has been actually doing criminal 
justice training for close to 40 years. And a lot of our 
graduates go into existing State positions. Some of them go 
back through the Academy at Artesia. And so we have had that 
kind of relationship.
    Our training program is recognized by the Attorney General 
and the Post Board of North Dakota, which is key to have the 
certification at the State level in terms of our graduation.
    We do a certificate and we do a two-year degree program. 
And we are located in a good location for the Northern Plains. 
We work very close with our respective law enforcement 
agencies, the city, county and States, and have good 
relationships with those kinds of agencies.
    We also have mechanisms for our students to receive other 
kinds of funding as a community college, obviously. I would 
just observe that unfortunately we think that the training at 
Artesia, while it is good in quality, simply hasn't been able 
to produce the number of graduates that are necessary for the 
if you want to call it the 2,800 vacancies that exist 
throughout Indian Country.
    Even at their capacity of 150, they are probably only 
producing maybe 50 percent in terms of the graduates that make 
it through that Academy. And while we are not being critical of 
that, we just simply say, and I have been listening to tribes 
for close to 30 years complain about the lack of basic law 
enforcement in the communities, we need other alternatives. We 
need to create a new and better model for Indian Country if we 
are going to alleviate the issues of public safety and 
endangerment in our various homes.
    I am from Standing Rock, and quite frankly, there are 
communities that that if you are a policeman, I would hesitate 
to go into some of those areas, not because the people are 
dangerous, but because crime has become rampant.
    And it is important for us to then begin to provide better 
public safety, because all of our tribal citizens want, you 
know, good, peace and harmony in their respective communities. 
We think we can do, or at least lend toward that effort on the 
Northern Tier, at least in a five-State region, perhaps beyond 
that.
    I am in the midst of an expansion of our campus right now. 
We have rededicated a number of areas that would go towards 
criminal justice. But we also think that the Indian tribes need 
good support to develop their own infrastructure, both locally 
and regionally in terms of that training, and also begin to 
have the support necessary for them to develop their own 
standards and accreditation, very similar to what the States 
have been able to do.
    And that is where we need to have that kind of support 
necessary for them to be able to truly exercise their 
independence, if you will, and again for the safety and harmony 
of that population.
    I am going to stop my remarks here. There is much more that 
I do have to say, and we will work very cooperatively on the 
development of this rich program, for example, with the Bureau 
of Indian Affairs. But we believe very strongly that basic law 
enforcement training needs to begin to happen in our region.
    Senator Johnson. Thank you, Dr. Gipp.
    [The prepared statement of Ms. Pearson follows:]

   Prepared Statement of Hon. Myra Pearson, Chairwoman, Spirit Lake 
 Nation; accompanied by David Gipp, President, United Tribes Technical 
                                College

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Johnson. Mr. Posey?

  STATEMENT OF HON. IVAN D. POSEY, CHAIRMAN, EASTERN SHOSHONE 
                             TRIBE

    Mr. Posey. Good afternoon, Mr. Chairman and Members of the 
Senate Indian Affairs Committee.
    My name is Ivan Posey. I currently serve as Chairman of the 
Eastern Shoshone Tribe in Wyoming. And there are a few things 
here that I want to touch on this afternoon. I will ask that my 
written testimony be incorporated into the record for this 
meeting.
    First is hiring, recruitment and retention. My meeting this 
morning with Bureau of Indian Affairs, Department of Interior, 
was regarding the hiring process. Although there are efforts to 
put more law enforcement officers on the ground, we really feel 
that that process may be cumbersome. If a person was hired 
today, had to go to the Law Enforcement Academy, we might not 
have an officer on the ground for nine months to one year.
    Right now, I had to correct the Senator when us guys were 
talking in the hallway there, that we have actually seven 
officers, and that includes the Chief of Police. We are 
including him as one of those law enforcement officers.
    Right now, the retention, I think, is a problem with the 
Bureau of Indian Affairs because right now we are slated to 
have five more officers come in to help with the Wind River. 
Two will be coming from Poarch Creek, Alabama and two will be 
coming from Seminole, Florida. It is snowing in Wind River, and 
I am not too sure how well-trained they will be to address 
those kind of conditions as in Minnesota or whatever.
    And I think by that process of robbing Peter to pay Paul 
just really doesn't work in Indian Country. By them supplanting 
some officers at our reservation that meet our needs, they are 
also taking officers away from their own duty station.
    In my testimony today, in my written testimony, I mention I 
felt it not necessary to mention those officers that are 
detailed there, which would bring us up to 12 currently, 
because seven are the ones that are actually are going to be on 
duty there.
    Housing continues to be an issue in Indian Country. I 
talked to the Wizi and the rest of the gentlemen this morning 
about there may be a disconnect between the regular Bureau of 
Indian Affairs and the stovepipe organization of law 
enforcement. I think that relates to the hiring process, to the 
facilities management, and there needs to be better 
coordination there.
    Education, as Dr. Gipp mentioned earlier, is something that 
we all need to do in terms of getting our younger people 
involved with criminal justice degrees or law enforcement in 
general.
    We also need to develop some type of training program 
where, I heard it mentioned earlier about the dangers of Indian 
Country and incorporating some of that knowledge into our new 
officers.
    I think my time is up.
    [The prepared statement of Mr. Posey follows:]

 Prepared Statement of Hon. Ivan D. Posey, Chairman, Eastern Shoshone 
                                 Tribe
    Good afternoon. My name is Ivan D. Posey and I currently serve as 
Chairman for the Eastern Shoshone Tribe on the Wind River Indian 
reservation in west central Wyoming.
    It is an honor to be able to provide testimony on a matter that is 
so important to the residents of the Wind River Reservation . . . 
public safety. I am also honored to provide this testimony to this 
prestigious committee on Indian issues which includes our own Senator, 
John Barrasso.
    The law enforcement of the Wind River Basin is comprised of a very 
distinctive law enforcement dynamic. This dynamic is first illustrated 
in the land base, with the Wind River Reservation consisting of 2.2 
million acres or roughly 3,472 square miles with 506 miles of paved 
roadways that encompasses all of Fremont County and a part of Hot 
Springs County. Aside from the land base the area has six different law 
enforcement agencies that have specific jurisdictions within this area. 
The first is the Bureau of Indian Affairs, Wind River Agency Law 
Enforcement; whose jurisdiction is primarily within the exterior 
boundaries of the reservation and specific to enrolled members of a 
federally recognized tribe. The Wyoming Highway Patrol jurisdiction is 
specific to 367 miles of state and county roadways and specific to non-
Indians within the exterior boundaries of the reservation. The Sheriffs 
of the counties of Hot Springs and Fremont have jurisdictions within 
their respective counties and also is specific to non-natives within 
the exterior boundaries of the reservation. Finally, the police 
departments of Lander and Riverton have jurisdictions that encompass 
their respective city limits.
    The primary law enforcement agency of the Wind River Reservation is 
a force created and funded by the Bureau of Indian Affairs (BIA). The 
Shoshone and Arapaho tribes have a Law and Order Code that stipulates 
that the BIA Police force shall carry out the orders of the Shoshone 
and Arapaho tribal courts and in the community enforce the letter and 
spirit of the code in an impartial manner (S&A Code Title 1-1-4). Some 
of the regular duties the BIA Police manage is the prompt serving of 
all notices which the court requests such as arrest warrants, and 
warrants for search and seizures. The BIA Police currently has 10 
active officers which includes a criminal investigator and Chief of 
Police. The current BIA Law Enforcement model with the Eastern Shoshone 
and Northern Arapaho Tribes stipulates seventeen officers, two criminal 
investigators, and one chief of police for the Wind River Reservation. 
However, due to the hiring process (background and training) and 
retention issues, the BIA police force has operated with an average 
patrolling force of seven officers in the 2004-2009 time spans and 
currently has seven officers on patrol. The seven officers work shifts 
that include two officers on duty in the day (6 a.m. to 6 p.m.) and 
four officers on duty in the night (6 p.m.-6 a.m.) to service the 2.2 
million acres of the Wind River Reservation. Due to the low number of 
officers on duty at any given time, their work consists primarily of 
reactive patrolling as opposed to proactive patrolling. Thus, response 
to calls are prioritized to the most emergent situation, leaving 
community members waiting for hours, or no response at all, if their 
call is not deemed an emergency. Another issue that has become 
prevalent is the availability of officers for court appearances should 
an individual plead not guilty and the matter goes to trial. Due to 
daily work demands and scheduling there has been an increase in the 
number of dismissed cases due to an officer not appearing for court. 
Most predominant is the 256 driving under the influence arrests made in 
2008 with only 68 resulting in convictions.
    As you can see Wind River has operated the past five years with 
half the amount of officers that have been allocated to the area due to 
the dynamics in hiring, training, and retention. Including an eighteen 
month period in which the department did not have a chief of police. In 
examining the hiring process, the obvious starting position is the 
recruitment process. At Wind River there is not a local recruitment 
program available for individuals interested in a law enforcement 
career. Coupled with the computer software used for the applications, 
the process becomes tedious and unusable due to a lack of technological 
resources that most local residents do not possess. Once an applicant 
has placed an application for an open position a lengthy process begins 
starting with the selection process. BIA Human Resources is charged 
with making the selection dependant on qualifications. However, the 
H.R. for law enforcement for Wind River is also charged with making the 
selections for not only District V but two other districts as well. Due 
to the high volume of applicants in each of these districts, selections 
can take nine months to a year. Depending on whether the applicants 
accepts or declines the position, the next step is a full background 
investigation through the Office of Personal Management which depending 
on the applicant could take several weeks. This does not include if the 
individual will be required to attend the federal law academy.
    Training has typically been an ominous proposition in hiring 
individuals as law enforcement officers on Wind River. In large part 
due to the length of time training consists of and in the number of 
opportunities the training was offered. Up until recently the 17 week 
Basic Police Officer Training Program offered through the Indian Police 
Academy was only held three times a year. This limit amount of training 
opportunities severely hampered getting individuals hired on patrol and 
created a bottle neck in the process. It was encouraging to hear that 
the BIA has recently increased the amount of training program 
opportunities from three times per year to fourteen in effort to 
streamline the process. However, some individuals serving in other law 
enforcement fields are often deterred from applying with the BIA due to 
their certifications not being recognized particularly the state law 
enforcement academies. Even though twenty-two state academies are 
recognized through the BIA it limits those individuals who have 
certifications from states that are not recognized.
    Finally, retention is greatly affected by the lengthy hiring and 
training process with open positions not being filled in a timely 
manner it puts a strain on the law enforcement officers that are 
already on patrol. As mentioned above the long work shifts with little 
or no time off wears on the officers to the point of burn out which 
affects their ability to perform in a consistent and effective manner. 
Thus, weakening the departments' ability to serve and protect the 
communities that they are assigned. This situation eventually leads to 
transfer requests or worse yet, resignations which in turn creates a 
perpetual cycle of hiring and training. In addition to burnout, 
retention is thwarted by the limited amount of housing or the lack of 
maintenance/upkeep of the available housing by Facilities Management. 
The housing issue often leads officers to pay extra for housing that is 
supposed to be provided as part of their duty assignment. This is 
particularly problematic in small rural communities such as Wind River, 
where housing is limited due to the availability and/or lack of 
development. One of the least discussed areas affecting retention is 
bred out of the nature of the work itself. It is not uncommon for the 
average law enforcement officer to experience the very worst of a 
communities' social ills. This includes but is not limited to handling 
situations spawned from substance use and abuse or handling of 
situations in which accidents occur that result in death. Experiencing 
a trauma directly or indirectly adversely affects an officers psyche 
which may have longer lasting affects in his/her professional or 
personal life. Currently the BIA does not have any stress management 
counseling to offer its officers to assist in managing situations that 
they may experience in the line of duty.
    The BIA has taken steps over the course of several years to address 
the areas of concern that have mentioned above however the process 
needs to be continually addressed and streamlined. The common practice 
of detailing officers from other BIA or Tribal departments to those 
departments deficient in the number of officers on patrol has been an 
effective means of addressing the problem in the short term. However, 
the temporary fix in of itself does present some logistical issues. 
Most prevalent is invoking the ``take from Peter to pay Paul'' 
principle in which the shifting officers from one department to another 
only weakens the department in which the officers are based. A detail 
assignment typically only lasts thirty to forty-five days in duration, 
with half that time being used for the ``foreign'' officer adjusting to 
the laws and policy of the local area. An inevitable situation that is 
commonplace is the detailed officer making an arrest and the 
perpetrator pleads not guilty and is scheduled to trial. The situation 
may call for the detailed officer to testify well after the officer has 
completed his/her detail and has returned to their base department. The 
cost to return to the area for testimony is not covered by the 
department or is absorbed by the local prosecutor's office with the 
latter unable to incur that cost. This adds to the cases that are 
dismissed and affects convictions rates much like what was discussed 
earlier with the low number of convictions for DUI in 2008 for Wind 
River.
    Hiring, training, and retention of law enforcement officers are 
areas in which the tribes of Wind River have identified as ongoing 
areas of concern. The Joint Business Council of the Eastern Shoshone 
and Northern Arapaho have taken the initiative to address these issues 
by first waving the Indian Preference criteria for BIA Law Enforcement 
Officers serving in Wind River on September 2009. This was made in an 
effort to broaden the selection process and increase the amount of 
applicants for the open positions. In addition the Joint Business 
Council created a Wind River Law Enforcement Commission that is charged 
with making all decisions concerning employment and discharge of 
tribally funded law enforcement officers. The hiring process that was 
instituted allowed for the hiring of two law enforcement officers to be 
on patrol within a three month span. Even though this process included 
the hiring of two individuals that were already certified the 
individuals received full background investigations and given clearance 
for duty. Thus laying the foundation for a hiring process that is 
expeditiously efficient in comparison to the current BIA process.
    The Eastern Shoshone and Northern Arapaho Tribes are working 
cooperatively with surrounding law enforcement agencies to assist in 
creating a tribally driven law enforcement model for the reservation. 
This may include districting the reservation and have law enforcement 
officers stationed in areas that need consistent coverage. Currently 
the jail facilities are located in Fort Washakie where a officer may 
need to travel 30 miles to respond to a call. The law enforcement 
agencies have been very supportive and continue to participate in this 
important process.
    In closing, there are several issues that can be addressed to make 
the system more effective. The first is having the hiring process done 
at the local level to alleviate the cumbersome process that currently 
exists. Second, re-establish Special Response Teams (SRT) to address 
shortfalls and high priority issues on reservations. This would help 
address officers being pulled from their duty stations and detailed 
elsewhere. Third, assist tribes to establish educational training for 
new officers to learn about the area they will serve. Lastly there 
needs to be access to counseling options for tribal and BIA officers 
that experience traumatic experiences. For our officers to be able to 
provide public safety to our citizens they need to be able to care for 
their needs foremost.
    Thank you for your time and attention to this important issue and 
with the prayers of our Elders and community our homelands can overcome 
these concerns that have plagued our tribal communities for too long.

    Senator Johnson. Thank you.
    Mr. Gaikowski? Welcome.

STATEMENT OF GARY GAIKOWSKI, CHIEF OF POLICE, SISSETON WAHPETON 
                     OYATE LAW ENFORCEMENT

    Mr. Gaikowski. Thank you. It is good to see you, Senator 
Johnson.
    I would like to also read my statement that I have to 
submit.
    Honorable Senator Tim Johnson and Members of the U.S. 
Senate Committee on Indian Affairs, on behalf of the Sisseton 
Wahpeton Law Enforcement of the Sisseton Wahpeton Oyate of the 
Lake Traverse Reservation at Agency Village, South Dakota in 
northeastern South Dakota and southeastern North Dakota, we 
thank the United States Senate Committee on Indian Affairs for 
providing the opportunity to present testimony with regards to 
the subject of the Bureau of Indian Affairs tribal police 
recruitment, hiring, training and retention.
    These are critical areas of concern for our Sisseton 
Wahpeton Law Enforcement Agency, and we are prepared to provide 
testimony at this time. The Sisseton Wahpeton Law Enforcement 
on Lake Traverse Reservation exercises policing and detention 
responsibility for the resident tribal population of 6,800 
tribal members who reside throughout a five-county rural area 
in northeastern South Dakota and two rural counties in 
southeastern North Dakota.
    Our responsibilities include the protection of 14 tribal 
member communities throughout this million acre area in two 
States.
    Our agency operates and is partially funded by P.L 93-638 
self-determination contract to the Bureau of Indian Affairs, 
and has the unique distinction of being funded by non-Federal 
funds from our own tribal government, which provides fully 50 
percent of the funds from tribal revenues so as to assure 
minimum operational costs in needs in law enforcement for our 
reservation.
    Our Tribal Law Enforcement Agency views the subject of 
recruitment of police and detention officers as being an 
extremely critical need for our overall community. Our 
experiences indicates that recruitment of tribal members from 
our communities to serve as police and detention officers is an 
essential ingredient in assuring effective law enforcement for 
the benefit of our residents.
    Funds currently are needed to put in place an effective 
police and detention officer recruitment program, particularly 
for younger tribal members who are enrolled in elementary, 
secondary schools and at our local college. We assert this need 
based upon the fact that fully 40 percent of our resident 
tribal member population is less than 16 years of age. Hence, 
it would be an advantage to target this significant portion of 
the resident population for recruitment as tribal police and 
detention officers.
    We stand prepared to network and coordinate recruitment 
efforts with our tribally-owned and operated schools and 
college, provided that Federal funding initiatives are made 
available for these initiatives.
    Secondly, the hiring and training of police and detention 
officers for our Law Enforcement Agency is also a critical area 
of concern and priority. The majority of applicants for police 
and detention positions in our agency do not have prior or 
previous experience in law enforcement or detention. Our 
Agency, therefore, is compelled to utilize limited Federal BIA 
and tribal funds to send our newly hired police officers to 
training at the BIA Indian Police Academy on an annual basis, 
since our Agency is required to employ personnel who are BIA-
certified as police officers.
    The provision of training also is direly needed to maintain 
our certification of officers on a full-time basis. Due to this 
situation, we therefore urge that Federal funds be appropriated 
for more training opportunities for our police and detention 
officer applicants on an annual basis.
    Such an initiative would empower our Agency to link 
recruitment with the hiring and training of eligible applicants 
to become employed as police and detention officers in our Law 
Enforcement Agency.
    Thirdly, the retention of police and detention officers in 
our Law Enforcement Agency also is a matter of great concern. 
Currently, due to limited Federal funding, it has been a 
challenge to provide a level of salaries for our police and 
detention offices at a comparable level of pay, as is the case 
for their counterparts employed by the Bureau of Indian 
Affairs. Without the full support and endorsement of our tribal 
government, which provides non-Federal funds for our Agency, we 
would not be able to provide an adequate salary for our police 
and detention officers.
    In order for our Agency to retain good and effective police 
and detention officers, we therefore urge more Federal dollars 
for salaries of our officers, which would enhance and ensure 
retention of our officers. Our Agency currently requires 16 
police officers on a full-time basis. We now have 12 officers 
employed, which places much stress on our officers.
    Our detention staff require the services of seven detention 
officers, and we currently employ three detention officers on a 
full-time basis, which again has served to overextend our 
detention officers.
    Any consideration that Congress can provide for our 
situation would be greatly appreciated in our time of need.
    In closing, we want to express our appreciation to the U.S. 
Senate Committee on Indian Affairs for providing us with the 
opportunity for preparing and submitting testimony today.
    [The prepared statement of Mr. Gaikowski follows:]

    Prepared Statement of Gary Gaikowski, Chief of Police, Sisseton 
                     Wahpeton Oyate Law Enforcement
    Honorable Senator Byron L. Dorgan, and members of the U.S. Senate 
Committee on Indian Affairs:
    On behalf of the Sisseton Wahpeton Law Enforcement of the Sisseton 
Wahpeton Oyate of the Lake Traverse Reservation, at Agency Village, SD, 
in northeast South Dakota and southeast North Dakota, we thank the 
United States Senate Committee on Indian Affairs for providing the 
opportunity to present testimony with regard to the subject of Bureau 
of Indian Affairs and tribal police recruitment, hiring, training, and 
retention. These are critical areas of concern for our Sisseton 
Wahpeton Law Enforcement agency, and we are prepared to provide 
testimony at this time.
    The Sisseton Wahpeton Law Enforcement on the Lake Traverse 
Reservation exercises policing and detention responsibilities for a 
resident tribal population of 6,800 tribal members who reside 
throughout a 5 county rural area in northeast South Dakota and two 
rural counties in southeast North Dakota. Our responsibilities include 
the protection of 14 tribal member communities throughout this million 
acre area in two States. Our agency operates and is partially funded by 
a P.L. 93-638 Self Determination Contract from the Bureau of Indian 
Affairs and has the unique distinction of being funded by non-federal 
funds from our own tribal government, which provides fully 50 percent 
of funds from tribal revenues, so as to assure minimum operational 
costs and needs in law enforcement for our reservation.
    Our Tribal Law Enforcement Agency views the subject of recruitment 
of police and detention officers as being an extremely critical need 
for our overall community. Our experience indicates that recruitment of 
tribal members from our communities to serve as police and detention 
officers is an essential ingredient in assuring effective law 
enforcement for the benefit of our residents. Funds currently are 
needed to put in place an effective police and detention officer 
recruitment program, particularly for younger tribal members who are 
enrolled in elementary, secondary school, and at our local college. We 
assert this need based upon the fact that fully 40 percent of our 
resident tribal member population is less than 16 years of age, hence 
it would be an advantage to target this significant portion of the 
resident population for recruitment as tribal police and detention 
officers. We stand prepared to network and coordinate recruitment 
efforts with our tribally owned and operated schools and college, 
provided that federal funding initiatives are made available for these 
initiatives.
    Second, the hiring and training of police and detention officers 
for our Law Enforcement Agency also are critical areas of concern and 
priority. The majority of applicants for police and detention positions 
in our Agency do not have prior or previous experience in law 
enforcement or detention. Our Agency therefore is compelled to utilize 
limited federal-BIA and tribal funds to send our newly hired police 
officers to training at the BIA Police Academy on an annual basis, 
since our Agency is required to employ personnel who are BIA certified 
as police officers. The provision of training also is direly needed to 
maintain our certification of officers on a full time basis. Due to 
this situation, we therefore urge that federal funds be appropriated 
for more training opportunities for our police and detention officer 
applicants on an annual basis. Such an initiative would empower our 
Agency to link recruitment with the hiring and training of eligible 
applicants to become employed as police and detention officers in our 
Law Enforcement Agency.
    Third, the retention of police and detention officers in our Law 
Enforcement Agency also is a matter of great concern. Currently, due to 
limited federal funding, it has been a challenge to provide a level of 
salaries for our police and detention officers at a comparable level of 
pay as is the case for their counter parts employed by the Bureau of 
Indian Affairs. Without the full support and endorsement of our Tribal 
government, which provides non-federal funds for our Agency, we would 
not be able to provide adequate salaries for our police and detention 
officers. In order for our Agency to retain good and effective police 
and detention officers, we therefore urge more federal dollars for 
salaries of our officers, which would enhance and assure retention of 
our officers.
    Our Agency currently requires 16 police officers on a full time 
basis, and we now have 12 officers employed, which places much stress 
on our officers. Our detention center requires the services of 7 
detention officers, and we currently employ 3 detention officers on a 
full time basis, which again has served to over extend our detention 
officers. Any consideration that Congress can provide for our situation 
would be greatly appreciated in our time of need.
    In closing, we want to express our appreciation to the U.S. Senate 
Committee on Indian Affairs for providing us with the opportunity of 
preparing and submitting testimony today.

    Senator Johnson. Thank you, Mr. Gaikowski.
    Mr. Posey, do you know how many of your officers are from 
your own reservation?
    Mr. Posey. I would say, Senator, four are from our own 
reservation.
    Senator Johnson. Those coming in sound like they are from 
down south.
    Mr. Posey. Yes. Right now, the four that are there and the 
ones that are going to be hired bring that number up to 12, but 
in terms of retention, we have lost three tribal police 
officers over the last year and a half due to burnout. I mean, 
I mentioned in my written testimony that they are working 12-
hour shifts and they continually get to the burnout stage. So 
we have lost three tribal members that were police officers 
that actually just resigned.
    Senator Johnson. Yes. Do you think a regional training 
center would alleviate some of the law enforcement shortage?
    Mr. Posey. I do, Senator. I know in the past there has been 
a bottleneck in Artesia in terms of getting people through the 
Academy. Now, that bottleneck has been fixed, I believe. But I 
think if it was a little bit closer, I know a couple of people 
from the reservation who are tribal members went down and 
didn't make it through the Academy in the last couple of years. 
I don't know whether that is the academic or the physical 
aspect of the training, but they did not complete the Academy.
    Senator Johnson. Do you think there would be lots of 
shortage of law enforcement if the tribe ran the police force 
under a 638 contract?
    Mr. Posey. You know, I am not too sure, Senator. I think 
the hiring process, the recruitment process really needs to 
have some aspect of being tribal-driven. I think, for example, 
we got a grant, a COPS grant where we hired two highway safety 
officers this last fall. It took us about two to three months 
to have those actual officers on the ground and doing highway 
safety, their duties in highway safety, although they do help 
respond to other emergency calls.
    But like I mentioned earlier, the process through the 
Bureau may take nine months to a year to get an officer on the 
ground, where we could have done it two to three months. And of 
course, maybe the stars lined up in that instance, but it is a 
lot quicker system.
    Senator Johnson. Mr. Gaikowski, Gary, how many of your 
officers are enrolled tribal members of the Sisseton Wahpeton 
Oyate?
    Mr. Gaikowski. They all are, all 12.
    Senator Johnson. That is unusual.
    Mr. Gaikowski. Yes.
    Senator Johnson. Yes. Do you think a regional training 
center would help with the problems on the Lake Traverse 
Reservation?
    Mr. Gaikowski. Well, I graduated in 1994 at the IPA. And I 
think, speaking with other Chiefs and other people in law 
enforcement, both tribal and Bureau, they would like to see the 
IPA still in charge of the Academy. I think this change in the 
Academy, they didn't like. I think it was a good Academy. It 
was tough and, you know, you want to be in law enforcement, you 
will get yourself through the Academy.
    Senator Johnson. What are the advantages or disadvantages 
of being a 638 tribal contract?
    Mr. Gaikowski. I think we hold to a better standard of 
working with the tribal programs and with the community. We 
know each other in the community. That is our families, our 
relatives, our friends. If you are from another reservation, it 
is a whole other, not all tribes are the same.
    We are all different. And you know, you are coming from 
another reservation and going, like you said, from going from 
Florida to Wyoming, that is a change. And you know, you are 
going to be probably treated a little bit different as an 
officer, and you are treated different as an officer even when 
you know the people. That is a given.
    Senator Johnson. Do you officers cover the entire area 
within the traditional boundaries of your reservation?
    Mr. Gaikowski. We are a checkerboard reservation. We only 
cover the fee lands and tribal lands.
    Senator Johnson. Do you cooperate with the county of 
Roberts County?
    Mr. Gaikowski. We have a very good working relationship 
with the local law enforcement there, county, State. We help 
each other out a lot. They are short-staffed, too. We are, you 
know, we are short-staffed. We have actually, three of ours are 
in the new class right now at IPA.
    Senator Johnson. Do you see the opportunities for 
reciprocity as a good one or is given to misunderstandings?
    Mr. Gaikowski. I, for South Dakota, of course, we have 
those tensions there. I think South Dakota is going to have to 
recognize our Academy. I think we have a good Academy. I have 
seen the State Academy. I have sent officers to the State 
Academy. I think we have a better Academy down there in 
Artesia.
    I think that is what it is going to take is the State of 
South Dakota recognize our Indian Police Academy.
    Senator Johnson. Why do so many Academy candidates drop 
out? You were there.
    Mr. Gaikowski. Yes. We did lose about half of our class 
also when I was down there. Since I have been in charge for 10 
years, I have probably lost I would say 50 percent of my staff 
when we sent them down to the IPA. I think it is the stress of 
the job. I lost an officer this summer, a very good officer, 
and it was job-related. I mean, it was just too many calls. He 
responded to infant deaths, and it affected him.
    I have lost two officers this past summer also to 
recruitment to the BIA. They can recruit right under our feet, 
our offices. Out of that increase we got for fiscal year 2010 
here, I took my $125,000. I put it to salaries for my existing 
staff.
    Senator Johnson. Thank you.
    Senator Franken, I have a note, two roll call votes at 4:15 
just started.
    Senator Franken. Okay, I will try to get through my 
questions fast.
    Mr. Posey, you did mention that it took nine months for you 
to get an officer through the BIA, but two months when you did 
it yourself. Is that right?
    Mr. Posey. Yes, in a sense, Senator.
    Senator Franken. Okay. Do you share Ms. Pearson's 
skepticism about the BIA, about their effectiveness?
    Mr. Posey. I do share some of that skepticism that she 
mentioned in terms of the system needing to be addressed and 
needing to be fixed. I think we are at a certain time in our 
history here where a lot of tribes, including the tribes at 
Wind River, are trying to develop our own law enforcement model 
that is tribally driven. We just need the BIA to be on the bus 
when we are driving it.
    Senator Franken. Would you say, outside of law enforcement, 
would you say this is a problem just in general?
    Mr. Posey. I think it is just in general for the BIA to 
some respect. I think in our community on the Wind River, the 
law enforcement agencies work pretty well together. Of course, 
our reservation is one of the unique reservations. It has about 
80 percent tribal trust land. So the majority of our land on 
our reservation is not checkerboard, although we are surrounded 
by a couple of towns. And of course, the county overlaps that.
    Senator Franken. I am just talking about on education, on 
health care, how you assess the BIA's performance.
    Mr. Posey. I think it has not been adequate for Indian 
Country.
    Senator Franken. Okay. Why is it so hard, with unemployment 
so high in Indian Country, why is it so hard to recruit from 
your own people?
    Mr. Posey. I think everything is all interconnected, 
Senator. I think we have to get more adequate funding and more 
effective models to address substance abuse, drug abuse. I 
think have strong preventive and reactive programs. Our 
proactive programs, we are always on our heels in Indian 
Country in terms of law enforcement. Drug abuse, substance 
abuse, sometimes that lays claim to getting something done 
proactively.
    Senator Franken. Are you saying that drug abuse and alcohol 
abuse lowers the recruitment pool? Or you are saying it makes 
it hard to recruit people because they have to deal with those 
problems? Or is it both?
    Mr. Posey. A little of both. I think that some may have 
problems. I mean, we, as one tribe, I know many tribes do have 
drug testing policies and stuff. And the numbers do show that 
those are serious issues in our area. But I think people feel 
safer, people have better access to programs. Whether they may 
have a problem is going to only enhance their ability to want 
to do better for themselves and our tribal communities.
    Senator Franken. Okay. I have just got a note that I have 
to vote as soon as possible, so I thank you.
    Mr. Gaikowski, I wanted to ask you about recruiting from 
your people because it was unusual that you have so many 
officers from your reservation, but I got this note that I have 
to go.
    I want to thank you both for your testimony and for your 
service. Thank you.
    Senator Johnson. Thank you for your public service and you 
may be excused.
    [Whereupon, at 4:20 p.m., the Committee was adjourned.]


















                            A P P E N D I X

   Prepared Statement of Hon. Michael O. Finley, Chairman, Colville 
                           Confederate Tribes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                            Joseph W. Wright
    Question 1. The Federal Law Enforcement Training Center training 
budget is $259 million in FY 2010. The President's request would cut 
training by approximately $50 million. The Bureau of Indian Affairs 
(BIA) training budget is $4 million.
    Has the Department of Homeland Security spoke with the Department 
of the Interior about consolidating the BIA police training function? 
Will you consider that possibility in the future?
    Answer. The 2011 President's Budget requests $5.1 million for the 
Indian Police Academy at the Federal Law Enforcement Training Center 
(FLETC), with the budget for the Department of the Interior (DOI). This 
is equal to the 2010 enacted level, and a $1.0 million increase over 
the 2009 budget.
    DOI has already consolidated all of its Basic Law Enforcement 
Training at the FLETC. The Bureau of Indian Affairs (BIA) has 
participated as a Partner Organization with the FLETC since 1989 when 
they closed their stand alone academy in Brigham City, Utah, and moved 
their operations to the FLETC Marana, Arizona site. In 1993 the FLETC 
Marana site was closed and the BIA relocated to the FLETC Artesia, New 
Mexico site. The BIA is currently participating fully in the same basic 
law enforcement program used by the other law enforcement agencies 
within DOI.

    Question 2. Congress has substantially increased funding to hire 
additional BIA and tribal police officers, but the BIA vacancy rate 
remains at 44 percent.
    Have you seen vacancy rates for other Federal law enforcement 
agencies that are that high or have comparable problems?
    Answer. The BIA historically has had a vacancy rate that far 
exceeds most Federal law enforcement agencies.

    Question 2a. Do you have an opinion as to why the BIA's rate is so 
high?
    Answer. There are several factors that may contribute to the high 
vacancy rate within the BIA. One deals with the recruitment of 
personnel to serve as law enforcement officers within Indian Country. 
Although the BIA receives ample applications for vacant positions, 
filling them has been problematic. Moreover, once officers are 
recruited and trained, retention is more difficult than in other 
agencies. This stems from several factors, including the fact that BIA 
law enforcement ranks are two grades lower than most of their Federal 
counterparts. Additionally, the employment conditions that these 
officers face contributes to the high vacancy rate within the BIA. 
Crime rates within Indian Country far exceed the average within the 
United States. Staffing levels are low and officers are required to 
respond to most calls as one person units without assistance being 
available.

    Question 3. In the Protecting Indian Country Report, the BIA has 
decided to do away with its long time paramilitary basic police 
training and instead use the Federal Law Enforcement Training Center's 
Land Management Police Training. On the FLETC website it describes the 
LMPT is ``basic training for officers primarily charged with enforcing 
natural resource laws and regulations and violations.'' However, DOJ 
officials and tribal leaders have testified about the horrific crimes 
committed in Indian Country. Organized gangs and drug cartels are 
growing, and the crimes include murder, rape, child sex abuse, drug 
trafficking and other serious crimes.
    Will the LMPT natural resources training prepare BIA and tribal 
police officers for the serious dangers that we know exist in Indian 
Country?
    Answer. The LMPT program is a comprehensive law enforcement 
training program designed to address the full spectrum of challenges 
that BIA officers will face during their initial assignments. They 
receive training focused on gangs and drugs, and the connection between 
the two, and in-depth training in the investigation of criminal 
offenses to include: interviewing, crime scene preservation, report 
writing, constitutional law, evidence collection/preservation, officer 
safety and survival, defensive tactics, use of force and law 
enforcement driving skills. The LMPT also allows BIA officers to train 
with other Federal agencies with which they will interact on a regular 
basis and therefore is the first step in building coalitions and 
outside support systems they will need to accomplish their mission of 
protecting Indian Country.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                            Joseph W. Wright
    Question 1. The Committee has received testimony that candidates 
for the Indian Police Academy basic training must wait for several 
weeks, even months, before they can enter training due to the 
scheduling and class sizes at the Indian Police Academy. Your written 
testimony noted that through the new consolidated training approach of 
the Land Management Police Training program, the Federal Law 
Enforcement Training Center and the Indian Police Academy are able to 
meet the training needs of all law enforcement agencies, both large and 
small, as their training needs arise.
    Can you explain how this new training regime has reduced the wait 
time for candidates to enter the Indian Police Academy and expedited 
their ability to report for duty on Indian reservations?
    Answer. The LMPT program has 14 starts a year with 24 persons per 
class and programs conducted at both our Artesia and Glynco sites. This 
allows the Indian Police Academy (IPA) to request a class of 24 
students, or place as few as one or two students into a program as they 
are hired. The positive consequence is instead of waiting several 
months to get into a program they can enter usually within weeks from 
being hired.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Joseph W. Wright
    Question 1. It is my understanding that the Indian Police Academy 
(IPA) in Artesia, New Mexico, has an attrition rate of 56 percent.
    Is 56 percent an accurate estimate of the attrition rate at the 
IPA?
    Answer. Under the ``old'' training program, BPOTP, the attrition 
rate for the last three years was 56 percent. However, under the 
current program, LMPT, we anticipate a reduced attrition rate.

    Question 1a. Why do you believe the attrition rate is so high?
    Answer. The attrition rate was high due to two major contributing 
factors; the first deals with hiring and recruitment of personnel. In 
order to graduate from the law enforcement training programs conducted 
by the FLETC, academic and physical standards have been established and 
must be met prior to graduation. These standards enable the FLETC to 
maintain Federal Accreditation from the FLETA. Secondly, the former 
training program (BPOTP) was very para-military driven while the new 
LMPT program is more law enforcement-centric. We believe this change in 
approach to training will be a key factor in the reduction of the 
attrition rate.

    Question 1b. How does IPA's attrition rate compare to that in other 
federal law enforcement training centers?
    Answer. The attrition rate experienced during use of the BPOTP 
program over its last three years was significantly higher than for 
other federal law enforcement training programs.

    Question 2. We are all aware that there is a suicide epidemic in 
Indian Country. When a family or acquaintance of an individual calls 
emergency services in these situations, everyone involved are in a 
physically and mentally vulnerable state.
    Are BIA police officers trained to be first responders to 
attempted/completed suicide situations?
    Answer. BIA police officers are trained to respond to calls that 
involve possible suicide/homicide. Should it come to that, they also 
receive training in crime scene preservation and communications skills 
to help them deal with not only the investigation but to provide 
resources to family members, officers and others who may be impacted by 
an event.

                                  <all>

</pre></body></html>
